<html>
<title> - UNITED STATES POLICY TOWARD IRAQ</title>
<body><pre>[Senate Hearing 107-19]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 107-19

                    UNITED STATES POLICY TOWARD IRAQ

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MARCH 1, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                    U.S. GOVERNMENT PRINTING OFFICE
71-541 DTP                  WASHINGTON : 2001




                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
CHUCK HAGEL, Nebraska                PAUL S. SARBANES, Maryland
GORDON H. SMITH, Oregon              CHRISTOPHER J. DODD, Connecticut
CRAIG THOMAS, Wyoming                JOHN F. KERRY, Massachusetts
BILL FRIST, Tennessee                RUSSELL D. FEINGOLD, Wisconsin
LINCOLN D. CHAFEE, Rhode Island      PAUL D. WELLSTONE, Minnesota
GEORGE ALLEN, Virginia               BARBARA BOXER, California
SAM BROWNBACK, Kansas                ROBERT G. TORRICELLI, New Jersey
                                     BILL NELSON, Florida
                   Stephen E. Biegun, Staff Director
                Edwin K. Hall, Democratic Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
GORDON H. SMITH, Oregon              PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee                BARBARA BOXER, California
                                     PAUL S. SARBANES, Maryland

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas, news release from 
  March 1, 2001, entitled ``Brownback Chairs Hearing on U.S. 
  Policy Toward Iraq.''..........................................     3
Cordesman, Anthony H., Arleigh A. Burke Chair for Strategy, 
  Center for Strategic and International Studies, Washington, DC.    14
    Prepared statement...........................................    17
Halperin, Dr. Morton H., senior fellow, Council on Foreign 
  Relations, Washington, DC......................................    22
    Prepared statement...........................................    25
Kerrey, Hon. Robert J., former U.S. Senator from Nebraska, and 
  president, New School University, New York, NY.................     9
    Prepared statement...........................................    12
Perle, Hon. Richard N., former Assistant Secretary of Defense for 
  Internatioal Security, Washington, DC..........................    28
    Prepared statement...........................................    33
Wellstone, Hon. Paul, U.S. Senator from Minnesota:
    Prepared statement...........................................     8
    Letter to President Clinton regarding existing sanctions 
      regime.....................................................     4

                                 (iii)



 
                    UNITED STATES POLICY TOWARD IRAQ

                              ----------                              


                        THURSDAY, MARCH 1, 2001

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                               South Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senators Brownback, Thomas, and Wellstone.
    Senator Brownback. The hearing will come to order. In 
keeping with the new mode of doing things on time, we are going 
to start this hearing on time. I am delighted to have the panel 
we have to day to testify on the issue of U.S. policy toward 
Iraq. This subcommittee has held a number of hearings on this 
topic, but this is a new administration. I think it is a chance 
for us to discuss some of the policy options that are presented 
before the United States today, this being the third President 
to confront Saddam Hussein, hopefully we will get a chance this 
time to address the root cause of the problem, that being 
Saddam Hussein himself.
    Senator Kerrey, welcome back. We are delighted to have you 
here. Congratulations on your wedding and new job. We are glad 
to have you here with your new colleagues. Mr. Perle, delighted 
to have you here again, and Dr. Halperin and Mr. Cordesman, 
delighted to have both you gentlemen join us as well.
    As we all know, this hearing will provide an opportunity to 
discuss the future of U.S. policy toward Iraq. Allow me to pose 
a question that I hope you will help us answer, and that is, is 
Saddam Hussein better off today than he was 10 years ago at the 
end of the gulf war? To my mind, the clear answer is yes, 
Saddam Hussein is better off today than he was at the end of 
the gulf war.
    The evidence is piling up that Saddam has reconstituted his 
illegal weapons programs. Two defectors from the regime have 
told British press that Saddam has a small nuclear weapon. I 
have not been able to independently verify that charge, but the 
straws are in the wind.
    Further, there is ample evidence, both public and 
otherwise, that Saddam is using the cover of a legally allowed 
missile program to work on longer range missiles that could 
eventually deliver weapons of mass destruction, and of course 
officials at UNSCOM were never willing to consider Saddam's 
assertion that he has these chemical and biological weapons 
programs. It certainly is logical to assume that in the absence 
of inspectors for over 2 years he has seized the opportunity to 
beef up his WMD programs.
    For our part, according to press reports about Secretary 
Powell's trip to the Middle East, the administration now 
supports using the existing sanctions and instituting so-called 
smarter sanctions, and I look forward to discussing this with 
the Secretary next week.
    As we listen to all this talk about smarter sanctions, I 
have to wonder whether we can put the horse back in the barn at 
all. The sanction regime and the international coalition 
against Iraq have been completely unraveled. The steady stream 
of international flights, kicked off by the Russians and the 
French, have headed into Baghdad since August without 
monitoring or inspection. The Chinese are working illegally in 
Baghdad without fear of repercussions, and press reports 
indicate that oil is once again flowing in the Iraqi-Syrian 
pipeline to the tune of 150,000 barrels per day.
    The profits from those illegal transfers of oil go straight 
into Saddam's pockets. To top it off, U.S.-British strikes on 
Iraqi air defense targets 2 weeks ago, intended to protect 
allied pilots from increased Iraqi threats, drew fire, not only 
from the usual suspects, but also from the Arab states we are 
ostensibly protecting, and are our partners on the Security 
Council.
    I think we need to face it, Saddam has won a good portion 
of the propaganda war. He is and remains a ruthless despot who 
refuses to spend all he is allowed for his people's well-being. 
Notwithstanding, the United States seems to be blamed for the 
suffering of the Iraqi people.
    Now, what do we do? Will we get inspectors back into Iraq? 
What sacrifices on sanctions will need to be made to get them 
in, and will any such inspections be worth those sacrifices? I 
rather doubt it. We are going to have to bite this bullet. 
After 10 years, sanctions have not achieved their intended 
goal, denying Iraq weapons of mass destruction being the goal 
that we intended to achieve.
    If that remains our goal today, and I certainly hope it 
does, then we need to ask whether any refinement to these 
sanctions systems will achieve that goal, and I would certainly 
like to hear our panel's opinions on that question.
    I believe that any tradeoff for weakening sanctions must be 
a more robust U.S. policy toward Iraq. The Republican platform 
in 2000 called for the full implementation of the Iraq 
Liberation Act and support for the Iraqi opposition. I, along 
with many of my colleagues, have long supported that policy, 
and hope the administration will work toward it. The threat 
that Iraq poses to its own people and to the decent nations of 
this world will remain for as long as Saddam Hussein is in 
power.
    To my mind, there is only one answer to solving this 
problem, and the answer is, Saddam Hussein, and getting him out 
of power. What do we do? Well, we make several suggestions 
here, and I look forward to those from our panelists. One, I 
think we can use the resources at our finger tips in the form 
of a drawdown and economic support to bolster the opposition 
and to fully implement the Iraq Liberation Act. We have Dr. 
Chalabi here with the Iraq National Congress. I am delighted to 
note your attendance in the audience as well.
    Second, we should stop spending money on conferences for 
the opposition and begin to train them, when necessary, even to 
arm them. We unilaterally should declare the southern no-fly 
zone will be a no-drive zone as well, and we should expand our 
rules of engagement, including to target WMD sites and 
potentially other targets as well.
    Those are several policy suggestions that I would put 
forward as we seek a more expanded and robust policy toward 
Iraq, and we seek to deal with the root problem, which is 
Saddam Hussein.
    That is a start. I look forward to what our panelists have 
to say, and their comments about what we should be doing toward 
a new U.S. policy toward Iraq.
    With that, I will turn to the ranking member, Senator 
Wellstone. We are delighted to have you join us here.
    [The prepared statement of Senator Brownback follows:]

                     [News Release--March 1, 2001]

          Brownback Chairs Hearing on U.S. Policy Toward Iraq

    Washington, DC.--U.S. Senator Sam Brownback chaired a Senate 
Foreign Relations subcommittee hearing today on U.S. policy toward 
Iraq. A portion of Senator Brownback's remarks from the hearing follow.

    ``This hearing provides an opportunity to discuss the future of 
U.S. policy toward Iraq,'' Brownback said. ``Allow me to pose a 
question that I hope you will help us answer: Is Saddam Hussein better 
off today than he was ten years ago, at the end of the Gulf War?'' To 
my mind, the clear answer is: ``Yes, Saddam Hussein is better off.''
    ``The evidence is overwhelming that Saddam is reconstituting his 
illegal weapons programs. Defectors from the regime have told the 
British press that Saddam actually has two small nuclear weapons. I 
have not been able to independently verify that charge, but the very 
possibility is alarming.
    ``Further, there is ample evidence, both public and otherwise, that 
Saddam is using the cover of a legally allowed missile program to work 
on longer range missiles that could eventually threaten those far 
beyond his borders with weapons of mass destruction. And of course, 
officials at UNSCOM have never believed Saddam's assertion that he had 
destroyed his chemical and biological weapons programs.
    ``It is certainly logical to assume that in the absence of 
inspectors for over two years, he has seized the opportunity to improve 
his WMD programs.
    ``For our part, according to press reports about Secretary Powell's 
trip to the Middle East, the administration now supports easing the 
existing sanctions and instituting so-called `smarter sanctions.' I 
look forward to discussing this proposal with Secretary Powell next 
week.
    ``As we listen to all this talk about `smarter sanctions,' I wonder 
whether we can put the horse back in the barn. The sanctions regime and 
the international coalition against Iraq have completely unraveled. 
Since August, a steady stream of international flights--kicked-off by 
Russia and France--have landed in Baghdad, without monitoring or 
inspection. The Chinese are working illegally in Baghdad without fear 
of repercussions, and press reports indicate that oil is once again 
flowing through the Iraqi-Syrian pipeline, at a rate of 150,000 barrels 
per day. The profits from those illegal transfers of oil go straight 
into Saddam's pocket.
    ``To top this all off, U.S.-British strikes on Iraqi air defense 
targets two weeks ago, intended to protect allied pilots from 
increasing Iraqi threats, drew fire, not only from the usual suspects, 
but also from the Arab states we are ostensibly protecting and from our 
partners on the Security Council.
    ``We must face it, Saddam has won the propaganda war. He is a 
ruthless despot who refuses to spend all that he is allowed to for his 
people's well-being. Nevertheless, the United States is blamed for the 
suffering of the Iraqi people.
    ``What can we do in response? Will we return our inspectors to 
Iraq? What sacrifices on sanctions must we make to get them in? And 
will any such inspections be worth those sacrifices? I doubt it.
    ``We are going to have to face the fact that after ten years, 
sanctions have not achieved their intended goal of denying Iraq weapons 
of mass destruction. If that remains our goal today--and I certainly 
hope it does--then we need to ask whether any refinement to this 
sanctions system will achieve that goal. I would like to hear your 
opinion on this question.
    ``If we weaken our sanctions we must strengthen other aspects of 
U.S. policy. The 2000 Republican Platform called for the full 
implementation of the Iraq Liberation Act and support for the Iraqi 
opposition. I, along with many of my colleagues, have long supported 
that policy and hope the administration will work to advance it.
    ``The threat that Iraq poses to its own people and to the decent 
nations of this world will continue as long as Saddam remains in power. 
To my mind, there is only one way to deal with this problem--to get rid 
of Saddam. This is how I propose we start this process:

  <bullet> We should use our available resources (in the form of 
        drawdown and economic support) to bolster the opposition and 
        fully implement the Iraq Liberation Act.

  <bullet> We must stop spending money holding conferences for the 
        opposition and begin to train and, when necessary, arm them.

  <bullet> We ought to unilaterally declare that the southern no-fly 
        zone will be a no-drive zone as well.

  <bullet> We should expand our rules of engagement to include WMD 
        targets and potentially other targets as well.

    ``This is where we should begin. I look forward to hearing what you 
think,'' Brownback said.
    Senator Brownback is chairman of the Subcommittee on Near Eastern 
and South Asian Affairs. Witnesses at the hearing included: the 
Honorable Bob Kerrey, President, New School University, New York, NY; 
the Honorable Richard N. Perle, Former Assistant Secretary of Defense 
for International Security, Washington, DC; Dr. Morton H. Halperin, 
Senior Fellow, Council on Foreign Relations, Washington, DC; Anthony H. 
Cordesman, Arleigh A. Burke Chair for Strategy, Center for Strategic 
and International Studies, Washington, DC.

    Senator Wellstone. Thank you, Mr. Chairman, and welcome to 
all of our panelists, and a special hello to Senator Kerrey. It 
is good to see you here, Bob.
    I want to thank all of you for being here, and I think this 
is a really important time to look very closely at our policy 
in Iraq. The chairman and I have worked together on a variety 
of different bills. I do not know how much in agreement or 
disagreement we are. This is a time when we go through some 
important rethinking.
    Let me just say at the beginning there is one obvious point 
of agreement, which is that I think Saddam Hussein truly one of 
the most dangerous individuals in the world, there is no 
question about that in my mind, and therefore a major, major 
challenge. I am pleased that the administration is going 
through a reevaluation of our policy.
    A year ago, and I think Secretary Halperin might remember 
this, I posed several ideas to the Clinton administration about 
how we might look at the existing sanctions regime, and my idea 
was that we would have a stricter monitoring on weapons-related 
activity, but that maybe what we would do is look at the 
economic sanctions and think about more flexibility, and I 
would like to include that letter in the record if I could, Mr. 
Chairman.
    Senator Brownback. Without objection.
    [The letter referred to follows:]

                                      United States Senate,
                                    Washington, DC, March 22, 2000.

President William J. Clinton
The White House,
Washington, DC.

    Dear Mr. President:

    As the UN Security Council continues to press to ensure Iraq's 
compliance with its international inspection obligations, and officials 
of your administration actively review policy options on Iraq, we are 
writing to express our deep concern about the ongoing humanitarian 
crisis there, and to urge greater US efforts at the United Nations to 
address it.
    We have been heartened by recent press reports that you are 
considering ways to ease the devastating effects of the sanctions on 
the Iraqi people. Although the current oil-for-food program (expanded 
under Security Council Resolution 1284, adopted in December, 1999) 
provides for some infrastructure repairs, as a temporary relief program 
it cannot adequately provide the longer-term planning and investment 
required to restore Iraq's civilian infrastructure to a level necessary 
to meet even the most basic civilian necessities. Those longer-term 
infrastructure improvements, coupled with expanded and accelerated 
humanitarian relief, are key to addressing the ongoing crisis.
    We recognize that Iraq poses a series of complex problems. On the 
one hand, we are confronted with the Iraqi government's persistent 
refusal to meet its international obligations with regard to Weapons of 
Mass Destruction (WMD), as well as its record of wholesale human rights 
abuses. On the other, the comprehensive UN sanctions regime has 
contributed to a humanitarian crisis that has seriously affected the 
health and well-being of millions of innocent Iraqis. It is clear that 
the policies of the Iraqi government have greatly compounded and 
magnified the humanitarian crisis, and that the government does not 
intend to make the welfare of its civilian population its priority. 
While the Iraqi government bears the lion's share of responsibility for 
the unnecessary civilian suffering due to its refusal to comply with 
the UN weapons inspection program--a refusal underscored by recent 
widespread, though largely speculative, media reports about its 
possible efforts to rebuild certain of its WMD capacities--this does 
not excuse the international community from its own humanitarian 
obligations.
    As one distinguished international human rights monitoring group 
recently observed, ``The Iraqi government's callous and manipulative 
disregard for its humanitarian obligations is not something the 
Security Council can reasonably expect will change. Rather, it is a 
reality the Council must take into account in deciding the appropriate 
means of securing the government's compliance with its disarmament 
demands.''
    The Iraqi government has proven indifferent to the suffering of its 
own people; we cannot afford to be similarly indifferent. Thus we 
believe that the administration should take urgent steps to better 
reconcile enforcement of its disarmament objectives in Iraq with its 
obligation to minimize harm to innocent Iraqi civilians and to ensure 
protection of their most basic rights.
    The Security Council's own report last year on the deteriorating 
humanitarian situation; the comprehensive UNICEF survey on child 
health; and reports from other relief agencies in the field, including 
the International Committee of the Red Cross (ICRC), make clear that a 
public health emergency persists in many areas of the country, and that 
efforts under the oil-for-food program to alleviate these conditions 
have been woefully inadequate. Indeed, a senior ICRC official recently 
warned that the increasingly precarious situation in the public 
infrastructure posed an imminent threat to the survival of those 
hospitals still functioning.
    We believe it is critical that we do what we can now to address 
directly this public health emergency. This requires restoring Iraq's 
civilian economic infrastructure in order to bring child mortality 
rates and other public health indicators back as close as possible to 
the levels that existed prior to the embargo. With this in mind, we 
strongly urge your administration to take the following initiatives:
    First, in the Security Council and the Sanctions Committee, push to 
implement immediately the recommendations of the report of the 
Council's humanitarian panel last March. Many of these recommendations, 
such as pre-approval of humanitarian items and using oil-for-food funds 
to purchase local Iraqi products and to hire and train Iraqi workers 
and professionals to undertake civilian infrastructure repairs and 
maintenance, are in Resolution 1284, but are conditioned on further 
steps by the Council or the Committee. We are pleased to note that the 
Sanctions Committee has begun the preapproval process for humanitarian 
items and urge you to take steps to ensure that these measures are 
implemented without further delay.
    Second, take all necessary steps to persuade the Security Council 
and its Sanctions Committee to take more seriously its acknowledged 
obligation to monitor the humanitarian impact of the sanctions, 
especially on vulnerable sectors of the population such as children and 
the elderly. If necessary, we believe you should press for an 
independent monitor such as a Special UN Rapporteur to assess the 
impact of the sanctions and the effectiveness of the oil-for-food 
program in addressing that impact, and to scrutinize the practices of 
the Iraqi government with respect to distribution of aid to its own 
people. You should also insist on greater transparency in the 
deliberations and decisions of the Sanctions Committee. While we 
recognize there may be circumstances in which decisions of the 
committee must remain internal matters, we believe its decision-making 
process should be made more transparent, and thus less susceptible to 
charges of politicization.
    Third, we urge you to press the Security Council to establish an 
international criminal tribunal mandated to investigate, indict, and 
prosecute Iraqi leaders and former officials against whom credible 
evidence exists of war crimes, crimes against humanity, and genocide. 
Such an initiative will at a minimum help enforce the continued 
political isolation of the government, even as steps are taken to 
lessen the economic isolation that has impoverished much of the 
population. It represents the kind of targeted sanction that should be 
directed against those responsible for those Iraqi policies we want to 
change. In addition, we believe you should press for multilateral steps 
to further isolate regime officials by freezing any of their remaining 
assets abroad, restricting their travel and that of their family 
members, increasing political and diplomatic pressure on any nations 
who may be allowing, directly or indirectly, transfers of sanctioned 
materials, and taking any other similar steps you deem necessary.
    Finally, we urge you to endorse a relaxation and restructuring of 
the economic embargo on Iraq, while continuing and even tightening 
where possible strict prohibitions on military imports. Such a 
restructuring would permit import of a broader range of non-military 
goods in order to allow the revival of the civilian economy. We 
recognize that an important goal of the present sanctions is to block 
the government's access to foreign exchange which could be used to 
finance imports for military and weapons-development purposes. We 
support that objective, but we do not believe the current approach is 
justifiable, or even sustainable. Instead, we believe the 
administration should, while maintaining current commercial and 
military flight restrictions, work with its Security Council partners 
to establish a new regime. Some variation of a proposal made recently 
by Human Rights Watch, which would make Iraqi imports liable to 
inspection at all major ports of entry, seems to us worthy of 
consideration. We recognize that some new expense would be required by 
such an effort, and would assume that it would be funded out of Iraq's 
export revenues, just as UNSCOM expenses have been since 1991.
    Rather than a system geared primarily to deciding what to allow in, 
the efforts and resources of the international community under an 
alternative approach like this would be redirected primarily to keeping 
out of Iraq military goods and products likely to be used for military 
purposes. While the current lists of prohibited items--from the Missile 
Control Technology Regime, the Schedules of Chemicals of the Chemical 
Weapons Convention, or the List of Dual Use Goods and Technologies and 
the Munitions List of the Wassenaar Arrangement, for example--should be 
maintained, relaxing import restrictions on certain categories of 
civilian-use items not on such lists would be an important step. 
Maintaining close yet transparent Security Council scrutiny of 
contracts to import items that have dual-use applications, coupled with 
a strong end-use monitoring regime, would further help. We assume such 
an approach would require development of an expanded list of items 
which, once the general category is licensed for import, need not be 
further approved by the Sanctions Committee, but rather only by the 
Secretariat under its routine review process. Of course, this would 
have to be coupled with an end-use monitoring program which includes UN 
monitoring teams on the ground, in order to prevent diversion of such 
items for nefarious purposes.
    This new approach does not represent a fail-safe means of 
containing Iraq's proliferation threat, or ensuring compliance with 
relevant Security Council obligations. But we must point out that 
neither does the present arrangement. Baghdad still has access to 
limited amounts of foreign exchange, and we understand that there are 
no border inspections of goods entering the country except, ironically, 
those already cleared by the Sanctions Committee. We understand further 
that any such changes to the current regime would require a 
considerable investment, politically as well as financially. There is 
no painless or cost-free way of addressing the Iraq's government's 
unwillingness to abide by its disarmament commitments. The point is 
that the pain and cost should not continue to be borne primarily by 
millions of ordinary innocent Iraqis.
    Mr. President, you and Secretary Albright have repeatedly observed 
that our quarrel is not with the Iraqi people. We agree. But 
regrettably our Iraq policy has too often had its most devastating 
impact on those Iraqis who bear no responsibility for the policies that 
we are trying to sanction, and change. We have an obligation, under the 
UN Charter and the Universal Declaration of Human Rights, not to 
destroy or undermine the right of a people to an adequate standard of 
living, freedom from hunger, and the highest attainable standards of 
health. For this reason we urge you to adopt the recommendations we 
have made in this letter, which in our view strike a better balance 
between legitimate non-proliferation concerns and those involving our 
humanitarian obligations to the people of Iraq--and may even be more 
effective in securing Iraq's eventual compliance than the current 
arrangement.
    Thank you for your consideration.

            Sincerely,
                                         Paul D. Wellstone,
                                             United States Senator.
                                          Russell Feingold,
                                             United States Senator.

    Senator Wellstone. Secretary Powell last week I think has 
raised some important questions, and his idea, as I understand 
it, of a stronger international effort to block Iraqi imports 
of arms and other military items, coupled with an easing of 
nonmilitary items and a more flexible approach to items that 
serve civilian needs I think could form the basis of a new 
international consensus on Iraq sanctions, and I hope, Mr. 
Chairman, that we will get into a discussion of what I think is 
a very important question.
    Look, first of all, I am not the expert, and second of all, 
this is far from simple, and you have got a government that has 
not been willing to comply with, at least for 2 years, plus 
now, any arms inspection, you have got a government that is 
involved in widespread and brutal human rights abuses, and 
there is no question that this is a real challenge.
    But I do think that there are questions that can be raised 
about the sanctions regime, and I also want to just pose two 
other questions as we engage in some hopefully hard thinking 
about Iraq. One of them is, we have been doing this--the policy 
of overflying Iraq has been in place now for years. It puts our 
pilots in danger on a daily basis, but I do not think it has 
changed the Government of Iraq's behavior at all, and I know 
that Senator Kerrey has been outspoken, as you have, Mr. 
Chairman, in support of the Iraq Liberation Act, but I think we 
ought to think very carefully about whether or not we want to 
provide lethal military weapons to the Iraqi opposition.
    I mean, if we do so, we risk overcommitting ourselves and 
leading the opposition to believe that the United States 
military will intervene if its fledgling efforts should falter, 
and I think the question we have got to deal with--and Senator 
Kerrey is always very direct. He is known for that, but are we 
prepared to rescue the Iraqi opposition--I mean, I think we 
need to deal with that question in this hearing--or are we 
prepared to let it die again?
    Now, if the current Government of Iraq should implode, we 
should be ready to move ahead with a generous assistance 
package to help Iraq develop a vibrant and democratic society, 
but by most informed accounts the opposition appears to be 
splintered, and weak, and may have little realistic chance of 
removing Saddam Hussein from power.
    I welcome again Senator Kerrey, Mort Halperin, Tony 
Cordesman, and Richard Perle to the hearing, and I look forward 
to your views, and I think really this committee, this is very 
timely, very important, and I really look forward to the 
discussion we are going to have.
    Thank you.
    [The prepared statement of Senator Wellstone follows:]

              Prepared Statement of Senator Paul Wellstone

    I welcome this hearing on our policy toward Iraq as the 
Administration initiates a comprehensive review that could have far-
reaching consequences for U.S. relations with the Arab world. The 
beginning of a new Administration is an appropriate time to review our 
policies and, where necessary, to recraft them in a way that meets the 
changing political and humanitarian concerns in the Middle East. A year 
ago, in the midst of the Clinton Administration's own Iraq policy 
review, I posed several ideas about how to apply the existing sanctions 
regime more flexibly while preserving strict monitoring of any weapons-
related activity. I would like to insert into the Committee record a 
copy of the letter I wrote to the President outlining those ideas.
    In this regard, Secretary Powell's trip last week to consult with 
our friends and allies in the Middle East was an extremely important 
initiative. The ideas that he discussed--a stronger international 
effort to block Iraqi imports of arms and military-related items 
coupled with an easing of non-military items and a more flexible 
approach to items that serve essential civilian needs--could form the 
basis of a new international consensus on Iraq sanctions. I hope that 
this hearing will help us put these ideas into perspective.
    Iraq poses a series of complex questions for policy makers. On the 
one hand, we are confronted with the Iraqi government's persistent 
refusal to meet its obligations with regard to Weapons of Mass 
Destruction (WMD), as well as its record of wholesale human rights 
abuses. At the same time, the comprehensive UN sanctions regime has 
contributed to a longstanding humanitarian crisis that has seriously 
affected the health and well-being of millions of innocent Iraqis. It 
is clear that the policies of the Iraqi government have greatly 
compounded and magnified the humanitarian crisis, and that the 
government has not made the welfare of its civilian population a 
priority. Even so, it has long seemed to me that a new approach on 
sanctions which allows much greater flexibility in the sanctions regime 
for obviously humanitarian goods and for certain dual use goods makes a 
lot of sense.
    It is true that the Iraqi government bears the lion's share of 
responsibility for unnecessary civilian suffering due to its persistent 
refusal to comply with the UN weapons inspection program. This refusal 
is underscored by widespread media reports about Iraq's possible effort 
to rebuild certain of its WMD capacities. However, the callous behavior 
of the Iraqi government does not excuse the international community 
from its own humanitarian obligations.
    I believe that we ought to explore further Secretary Powell's 
initiative, refine it, and see if constructive alternative approaches 
can be developed in place of the current stalemate. We need some hard 
thinking on Iraq. Our policy of overlying Iraq has been in place for 
years and puts our pilots in danger on a daily basis but has not 
changed the government of Iraq's behavior. I know that Senator Kerrey 
has been outspoken in his support for the Iraq Liberation Act, but we 
need to think carefully whether to support providing lethal military 
weapons to the Iraqi opposition. We risk overcommiting ourselves and 
leading the opposition to believe that the United States military will 
intervene if its fledgling efforts should falter. Are we prepared to 
rescue the Iraqi opposition? Are we prepared to let it die again?
    If the current government in Iraq should implode, certainly we 
should be prepared to move ahead with a generous assistance package to 
help Iraq develop a vibrant and democratic society. But, by most 
informed accounts, the opposition appears splintered and weak and may 
have little realistic chance of removing Saddam Hussein from power.
    I welcome Senator Kerrey, Mort Halpern, Richard Perle, and Tony 
Cordesman to the hearing today and look forward to hearing their views.

    Senator Brownback. Thank you, Senator Wellstone.
    Senator Thomas.
    Senator Thomas. Thank you, Mr. Chairman. I will look 
forward to it also. Therefore, I will pass to let the panelists 
begin. Thank you.
    Senator Brownback. Thank you. I think this is your first 
time back to the Senate, Bob. The first witness up will be Hon. 
Bob Kerrey, former Senator from the great State of Nebraska, 
second best basketball team in the states between Kansas and 
Nebraska, and current president of the New School University in 
New York. Bob, welcome back. We are delighted to have you here.

   STATEMENT OF HON. ROBERT J. KERREY, PRESIDENT, NEW SCHOOL 
                    UNIVERSITY, NEW YORK, NY

    Senator Kerrey. Thank you very much, Mr. Chairman. Senator 
Wellstone, Senator Thomas, it is good to see all of you again. 
It is nice to have a chance to come back, especially to talk on 
this particular subject. Mr. Chairman, I have a longer 
statement that is a bit mangled, but I would like to ask 
unanimous consent that it be put in the record, and I will try 
not to drag this out too long.
    First, I would observe that on Monday we had the 
opportunity to watch a very moving ceremony in Kuwait with 
General Schwartzkopf and Secretary Powell and former President 
Bush celebrating the 10-year anniversary of the liberation of 
Kuwait. That liberation occurred on 26 February, 1991. Two days 
later, on the 28th, yesterday, we celebrated the cease-fire of 
that rather remarkable 208-day occupation of Kuwait by Iraq and 
the driving of the Iraqi forces out of Kuwait was celebrated 
quite correctly as a remarkable demonstration of power used for 
good in a multilateral, multinational way.
    My guess is, starting that from scratch today people would 
say it cannot be done, it could not be done, et cetera, but it 
was a rather remarkable accomplishment.
    Well, Mr. Chairman, members of the committee, a lot has 
happened in the decade since, and I do think it is important to 
look at that history. I am not going to go through all of the 
details, but I would like to describe five important things 
that have happened in the last 10 years that I think are 
enormously relevant to the discussion and help frame the debate 
for what we are going to do going forward.
    First, after that cease-fire was declared, Iraq agreed to 
allow United Nations weapons inspectors to verify that Iraq had 
destroyed its capacity to manufacture biological and nuclear 
weapons. Until verification was complete, the United Nations 
Security Council voted to enforce external sanctions that would 
permit Iraq to sell oil for food and medicine that they needed 
for domestic consumption.
    The time it was estimated to get this done was in months if 
Saddam Hussein cooperated, and what has come to be quite common 
practice, he confounded expectations by interfering, by 
harassing, and in the end banning the weapons inspectors from 
the territory. Now, reliable intelligence, I say to this 
committee, has confirmed the reason for Iraq's behavior. It is 
quite simply, they want to maintain a robust program to develop 
weapons of mass destruction.
    The second thing that needs to be considered over the last 
10 years is that Iraq has maintained a policy so hostile to 
human rights, especially for the Kurdish minority in the north 
and the Shia in the south, and I would say, Senator Wellstone, 
I think if you stop those no-fly operations we would have Kurds 
dying in the north and Shias dying in the south, and they are 
alive today as a consequence of those no-fly zones being 
maintained.
    No dissent is possible inside of Iraq. Thousands have been 
imprisoned, tortured, and executed for opposing the current 
regime. Mr. Chairman and members of the committee, with or 
without sanctions, the 20 million people of Iraq deserve to 
have the United States of America on the side of their freedom.
    Third, we have sustained a military effort to contain Iraq, 
and that military effort has cost us lives. U.S. and British 
pilots fly almost daily, as Senator Wellstone observed, to 
enforce the no-fly zones in the north and in the south, but Mr. 
Chairman, members of the committee, we have also maintained a 
presence at the Dahran military installation in Saudi Arabia, 
and the significance of that is that this installation, part of 
our containment policy, was the target of a truck bomb attack 
on 25 June, 1996, that killed 19 U.S. airmen. It was cited by 
Osama bin Laden as a reason for attacking U.S. Embassies in 
Africa on August 17, 1998, that killed 11 Americans and over 
200 others. Our military presence was cited again when the USS 
Cole was attacked on October 12, 2000 in the Port of Aden, 
Yemen, killing 17 American sailors.
    I point this out, Mr. Chairman, because when the debate 
occurs as to whether or not military force is needed, do not 
forget that we already have a very expensive military operation 
in place today. The question is not, should we have a military 
operation. The question is, how should that military operation 
be deployed?
    Fourth, when he signed the Iraq Liberation Act into law on 
October 31, 1998, President Clinton began the process of 
shifting away from the failed policy of using military force to 
contain Iraq to supporting military force to replace the 
military dictatorship of Saddam Hussein with a democratically 
elected government and, although our support for opposition 
forces has been uneven at best, this new policy is still 
current law.
    Fifth, Mr. Chairman, opponents of establishing our policy 
objective as liberation of the people of Iraq use a number of 
effective arguments, and I would like to cite them, because I 
would like to also refute them. They say, we would never get 
the support for a military operation. They say that democracy 
will not work in Iraq, that Arabs are not capable of governing 
themselves. They say finally that the opposition forces lacks 
the legitimacy and capability and in particular the most 
visible organization, the Iraq National Congress, lacks the 
coherency and ability to get the job done.
    Well, Mr. Chairman, I am very much aware that these 
arguments gather force when they are not answered, so I would 
like to answer all three. First, these arguments are little 
more than excuses, in my view, designed to keep us from doing 
what we know we should do, and we know what we can do if our 
will is strong.
    The argument against military force encourages us to ignore 
the hundreds of millions that we spend every single year to 
contain Iraq, and the 47 American lives that have already been 
lost to enforce this containment policy.
    The argument that Arabs cannot govern themselves is racist. 
It encourages us to ignore a million Arab-Americans who 
exercise their rights when those rights are protected by a 
constitution and law, and the argument against the Iraq 
National Congress [INC] is little more than a parroting of 
Saddam Hussein's propaganda.
    Mr. Chairman, members of the committee, I am very much 
aware that domestic and international support has been steadily 
eroding for continuing sanctions against Iraq, let alone a new 
military strategy to end the nightmare of this dictatorship. I 
have watched with growing sadness as Iraq has exploited the 
public's lack of memory, the Clinton administration's silence, 
and the world's appetite for its production of 4 million 
barrels of oil a day.
    I have read the reports of Secretary Colin Powell's return 
to Kuwait this week, and the difficulty that he is having 
convincing our allies that we must stay the course in opposing 
the Iraqi regime. I have read proposals by informed 
commentators to try to get the best deal we can at this point, 
including one by Mr. Tom Freidman that would offer an end to 
sanctions and U.S. recognition in exchange for allowing U.S. 
inspectors to verify weapons of mass destruction are not being 
built in Iraq.
    Mr. Chairman, members of this committee, I urge you not to 
go along with the flow. This flow of public opinion in my 
opinion will lead us in the wrong direction. The United States 
should push back hard in the opposite direction, and the 
reason, Mr. Chairman, is simple. Saddam Hussein's Iraq 
represents a triple threat to us, to our allies in the region, 
and to the 20 million people who have the misfortune to live in 
a country where torture and killing of political opposition has 
become so routine it is rarely reported.
    Iraq is a threat to us because they have the wealth and the 
will to build weapons of mass destruction, chemical, 
biological, and nuclear. Since the end of the gulf war in 1991, 
Saddam Hussein has lied and cheated his way out of the 
inspection regime and has succeeded in convincing too many 
world leaders to overlook the danger he opposes to them. Iraq 
is a threat to allies in the region because Iraq has displayed 
no remorse, and no regret for its invasion of Kuwait. Instead, 
they continue to justify their illegal act and condemn the 
U.S.-led effort which forced them to surrender the territory to 
their neighbor after inflicting inestimable damage to Kuwait.
    The Iraqi Government is a threat to their own people, 
especially the Kurds in the northern provinces and the Shia in 
the south. Mr. Chairman, without our willingness to maintain 
no-fly zones in the north and south, thousands more innocents 
would have died from Iraqi military assaults. It is by no means 
clear-cut that Iraqi civilians are suffering as a consequence 
of our sanctions. What is clear-cut is that the Iraqi people 
are suffering as a consequence of Saddam Hussein's policy of 
diverting United Nations money away from needed food and 
medicine to rebuilding his palaces and his military.
    So Mr. Chairman, I come here today to urge you to stay the 
course, join with President Bush, and tell him to imagine 
returning to Baghdad himself 10 years from now to celebrate the 
liberation of Iraq. In my view, it is possible. In the view of 
the Iraqi people, the people living in the region, and the 
people of the United States of America, it is also desirable.
    So what, specifically, can we do? Well, let me just offer 
modestly, in the spirit of bipartisan foreign policy, and in 
the words of a group of now senior Bush administration 
officials who wrote the letter to President Clinton in 1998, 
there are three things that would be the beginning of the end 
of Saddam Hussein's reign of terror. First, we should recognize 
a provisional Government of Iraq based on the principles and 
leaders of the Iraq National Congress that is representative of 
all the peoples of Iraq.
    Second, Mr. Chairman, we should restore and we should 
enhance the safe haven in northern Iraq that would allow a 
provisional government to extend its authority there, and 
establish a zone in southern Iraq from which Saddam's ground 
forces would also be excluded.
    Third, we should lift the sanctions in the liberated areas.
    Mr. Chairman, members of the committee, these three moves 
in my view would signal that the United States of America will 
not yield ground to the world's worst and most dangerous 
dictator, and we would send a signal to the people of Iraq that 
we will not be satisfied until they are free to determine their 
own fate.
    Mr. Chairman, members of the committee, I want to thank you 
again for your invitation to hear my views.
    [The prepared statement of Senator Kerrey follows:]

              Prepared Statement of Hon. Robert J. Kerrey

    Mr. Chairman and members of this distinguished committee, thank you 
for this invitation to testify on the question of what United States 
policy should be regarding Iraq.
    This week marks the tenth anniversary of the liberation of Kuwait 
on February 26, 2001. On February 28, 1991, a cease fire was declared. 
The world had witnessed a breath-taking exhibition of U.S. led 
coalition power that ended the 208 day Iraqi invasion.
    A lot has happened in the decade since. The detail of that history 
is terribly important for those who want to understand what we should 
do today. I will not take time to review all this detail but will 
summarize five points I believe are most important:
    First, following a cease fire Iraq agreed to allow United Nations 
weapons inspectors to verify that Iraq had destroyed its capacity to 
manufacture chemical, biological and nuclear weapons. Until 
verification was complete the United Nations would enforce external 
sanctions that permitted Iraq to sell oil for food and medicine. The 
time needed to complete this inspection would have been a few months, 
if Saddam Hussein cooperated. As has come to be common practice Iraq 
confounded expectations by interfering, harassing and finally banning 
the weapons inspectors from its territory. Reliable intelligence has 
confirmed the reason for their behavior to be simple: They want to 
maintain robust programs to develop weapons of mass destruction.
    Second, Iraq has maintained a policy so hostile to human rights--
especially for the Kurdish minority in the north and the Shia in the 
south--that no dissent is possible. Thousands have been imprisoned, 
tortured, and executed for opposing the current regime. With or without 
sanctions the 20 million people of Iraq deserve to have the United 
States on the side of their freedom.
    Third, we have sustained a military effort to contain Iraq and that 
military effort has cost us lives. U.S. and British pilots fly almost 
daily to enforce a no-fly zone in northern Iraq that has saved the 
lives of Kurds and a no-fly zone in southern Iraq that has saved the 
lives of Shia. We have also maintained a presence at the Dhahran 
military installation in Saudi Arabia. This installation was a target 
of a truck bomb on June 25, 1996, that killed 19 U.S. airmen. It was 
cited by Osama bin Laden as a reason for attacking U.S. embassies in 
west Africa on August 7, 1998, that killed 11 Americans and over 200 
others. Our military presence was cited again when the U.S.S. Cole was 
attacked on October 12, 2000, in the port of Aden, Yemen, killing 17 
American sailors. So when the issue of military force is debated do not 
forget that we have an expensive military operation in place now. The 
question is not should our military be used; the question is how.
    Fourth, when he signed the Iraqi Liberation Act into law on October 
31, 1998, President Clinton began the process of shifting away from the 
failed policy of using military force to contain Iraq to supporting 
military force to replace the dictatorship of Saddam Hussein with a 
democratically elected government. Although our support for opposition 
forces has been uneven at best this new policy is still current law.
    Fifth, opponents of establishing our policy objective as liberation 
of the people of Iraq have used a number of effective arguments to keep 
the status quo in place. They say we would never get support for a 
military operation. They also say that democracy won't work in Iraq, 
that Arabs aren't capable of governing themselves. Finally, they attack 
the legitimacy and capability of the most visible organization, the 
Iraqi National Congress. But these arguments are little more than 
excuses designed to keep us from doing what we know we should do and 
can do if our will is strong. The argument against military forces 
encourages us to ignore the hundreds of millions spent each year to 
contain Iraq and the 47 American lives lost since containment began. 
The argument that Arabs cannot govern themselves is racist and 
encourages us to ignore a million Arab Americans who exercise their 
rights when they are protected by constitution and law. The argument 
against the I.N.C. is little more than a parroting of Saddam Hussein's 
propaganda.
    Mr. Chairman and members of the committee I am very much aware that 
domestic and international support has been steadily eroding for 
continuing sanctions against Iraq let alone a new military strategy to 
end the nightmare of this dictatorship. I have watched with growing 
sadness as Iraq has exploited the public's lack of memory, the Clinton 
administration's silence, and the world's appetite for its production 
of 4 million barrels of oil a day.
    I have read the reports of Secretary of State Colin Powell's return 
to Kuwait this week and the difficulty he is having convincing our 
allies that we must stay the course in opposing the Iraqi regime. I 
have read proposals by informed commentators to try to get the best 
deal we can at this point including one by Mr. Tom Friedman that would 
offer an end to sanctions and U.S. recognition in exchange for allowing 
U.S. inspectors to verify that weapons of mass destruction are not 
being built in Iraq.
    Mr. Chairman and members of the committee I urge you not to go 
along with the flow of public opinion. The United States push back hard 
in the opposite direction. The reason is simple: Saddam Hussein's Iraq 
represents a triple threat to us, to our allies in the region and to 
the 20 million people who have the misfortune to live in a country 
where torture and killing of political opposition has become so routine 
it is rarely reported.
    Iraq is a threat to us because they have the wealth and the will to 
build weapons of mass destruction: chemical, biological and nuclear. 
Since the end of the Gulf War in 1991 Saddam Hussein has lied and 
cheated his way out of the inspection regime and has succeeded in 
convincing too many world leaders to overlook the danger he poses to 
them. Iraq is a threat to allies in the region because they have 
displayed no remorse or regret for their invasion of Kuwait. Instead 
they continue to justify their illegal act and condemn the U.S. led 
effort which forced them to surrender the territory of their neighbor 
after inflicting inestimable damage to Kuwait.
    The Iraqi government is a threat to their own peoples especially 
the Kurds in the northern provinces and the Shia in the south. Without 
our willingness to maintain no-fly zones in the north and south 
thousands more innocents would have died from Iraqi military assaults. 
It is by no means clear-cut that Iraqi civilians are suffering as a 
consequence of sanctions. What is clear cut is that the Iraqi people 
are suffering as a consequence of Saddam Hussein's policy of diverting 
United Nations monies away from much needed food and medicine to 
rebuilding his palaces and his military.
    So, I have come here today to urge you to stay the course. Join 
with President Bush and tell him to imagine returning to Baghdad ten 
years from now to celebrate the liberation of Iraq. In my view it is 
possible. In the view of the Iraqi people, the people living in the 
region and the people of the United States of America it is also 
desirable.
    What specifically can we do? In the spirit of bi-partisan foreign 
policy and in the words a group of now senior Bush administration 
officials used in a 1998 letter to then President Clinton here are 
three things that would be the beginning of the end of Saddam Hussein's 
reign of terror:

          1. Recognize a provisional government of Iraq based on the 
        principles and leaders of the Iraq National Congress (INC) that 
        is representative of all the peoples of Iraq;

          2. Restore and enhance the safe haven in northern Iraq to 
        allow a provisional government to extend its authority there 
        and establish a zone in southern Iraq from which Saddam's 
        ground forces would also be excluded;

          3. Lift sanctions in the liberated areas.

    Mr. Chairman and members of the foreign relations committee these 
three moves would signal that the United States will not yield ground 
to the world's worse and most dangerous dictator. And we would signal 
to the people of Iraq that we will not be satisfied until they are free 
to determine their own fate.

    Senator Brownback. Thank you very much. Thank you for the 
powerful statement and the clarity of it, and I look forward to 
having a good discussion on these points as we go on through.
    Mr. Cordesman, let us hear your testimony next if we could. 
Thank you for joining us.

 STATEMENT OF ANTHONY H. CORDESMAN, ARLEIGH A. BURKE CHAIR FOR 
   STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Mr. Cordesman. Thank you, Mr. Chairman. I would like to 
thank you and the subcommittee for the opportunity to testify 
this afternoon. I do have a formal statement which I would 
appreciate it if it could be incorporated into the record, but 
I would make only a brief statement.
    Senator Brownback. It will be included in the record.
    Mr. Cordesman. I think I should preface my remarks with the 
fact that you cannot have an Iraq policy that works without a 
new policy in dealing with the Arab-Israeli peace issue, 
without rethinking your policy toward Iran, and without 
broadening our diplomacy, which has focused in the last 2 years 
almost exclusively on the peace process to consider how you can 
buildup a stronger basis of support in the southern gulf.
    But if I may address your question, is Saddam better off 
today, the answer is yes, in some ways. There is one area where 
he is clearly not better off. If you look back at the rate of 
arms imports that he had until the embargo in mid-1990, by now 
he would have spent anywhere from $22 to $45 billion on arms 
imports. He has not had any major imports of arms since mid-
1990, although there has been smuggling, and some technology 
transfer.
    In spite of demonstrations of prototypes, there has been no 
serial production of a single major weapons system within Iraq. 
There has been the assembly of some T-72 kits. I think we have 
only to think what would happen in the United States if we 
froze the technology base for 10 years, if we could not have 
reacted to the lessons of the gulf war, and if our military 
establishment consisted of worn equipment that was used in the 
Iraq-Iran war, in large part, before it was certainly worn in 
the gulf war.
    In terms of weapons of mass destruction, it is an 
unfortunate reality that during the gulf war we had only a 
limited number of successful strikes on these facilities. 
Nevertheless, the gulf war forced UNSCOM into Iraq, and we 
should not discount what happened. Several billion dollars' 
worth of manufacturing facilities, weapons, and technology, was 
physically destroyed.
    As you pointed out, however, his technology base remains. 
It is virtually certain that he has had a decade in which to 
improve that technology base. Certain key aspects of that base, 
particularly the production of centrifuges and advanced 
biological weapons, could never be traced by UNSCOM, which 
raises further questions about UNMOVIC. He has the stockpiles 
to probably create a significant break-out capability, and 
rapidly deploy some of these weapons.
    In economic terms, the benefits to him are clear. Since 
1990 economic sanctions have eroded to the point where Iraq has 
at least $1 billion worth of uncontrolled income from smuggled 
petroleum exports. Its legal oil revenues in 2000 are estimated 
at roughly $22 billion, which is about 90 percent higher than 
they were the previous year, and 170 percent higher than the 
year before that.
    It is clear even from reports that focus on the hardship of 
the Iraqi people that he is succeeding in controlling how these 
imports of humanitarian goods and medical goods are used. They 
are going to the elite. They are going to urban areas. They are 
not going to the Shiites, they are not going to the center, and 
they are not going to the Kurdish population that is not in the 
Kurdish security zone. It is equally clear that consumer goods, 
some of them luxury goods, are going to the elite around 
Saddam, to senior officers in the Republican Guards, and to the 
security forces.
    As a result, I believe that we should refocus actions to 
concentrate on long-term efforts to ensure Saddam cannot import 
conventional weapons, and that technology and equipment to 
produce weapons of mass destruction. At the same time, the 
phrase, ``smart sanctions,'' is not by itself a policy, even in 
dealing with Iraq, and there are seven areas where I believe we 
are going to have to change that policy.
    First, we will never have consensus that restricts the flow 
of arms and military technology to Saddam Hussein. There are 
too many suppliers. There are too many types of dual-use items. 
There are nations, North Korea, Russia, and China, which have 
cheated on every arms control agreement that they have 
participated in. To make smart sanctions work at all, there are 
two price tags, and they still will not ensure any kind of 
leak-proof regime.
    One is a massive intelligence effort to trace what is 
happening on the part of supplier nations and entities. The 
other is something we have not been good at in the past, 
confrontational diplomacy that will really go to countries 
which violate any controls and confront them and possibly 
sanction them under other laws targeted to deal with these 
specific imports. It is very easy to talk about intentions, but 
the whole history of proliferation is that broad agreements 
simply fail.
    Second, I think we should come to grips with the fact that 
at this point in time, even if we could get UNMOVIC back into 
Iraq, and Saddam has shown no signs of the willingness to 
permit this, it might well do more harm than good. The history 
of similar regimes, particularly the IAEA, even when we had 
inspections, was that they were willing to basically certify 
Saddam was in compliance by saying they could not find evidence 
he was not in compliance. We have not had aggressive 
inspections since early 1997 and, quite frankly, I do not 
believe a U.N. regime would get the political support to have 
such inspections. Furthermore, I think it is simply too late to 
find the dispersed cells and operations which have been built 
up since the mid-1990's.
    Where I do disagree with Senator Kerrey and, I think, 
others of the panel, is I do not believe that focusing on the 
Iraqi opposition is no more than a forlorn hope. It would be 
nice if it could develop military capabilities. It would be 
nice if it had the support of the countries in the region. It 
would be nice if it had resonance inside Iraq. I do not believe 
it has that support. I think the other panelists here disagree 
with me, but for many of the people in the region, they are a 
tool that would divide Iraq, and certainly the Saudis and the 
Kuwaitis have raised issue to me at some length. The Turks fear 
them as a way of dividing Iraq and creating a Kurdistan.
    I wish, again, this situation was different. I recognize 
that at this point in time the United States has major problems 
in generating the kind of patient, systematic, covert effort to 
develop internal opposition that might work. Unless we do this, 
however, I think we will find ourselves legislating the funding 
of a forlorn hope.
    Fourth, as has been previously mentioned, I think we made a 
massive foreign policy mistake in not confronting Saddam and in 
not refuting the lies that he told over a 10-year period. I can 
think of only two statements from the State Department that 
ever systematically attempted to explain what was happening 
under oil for food, and who the true cause of many of Iraq's 
problems were. One was a glorified publicity release, and the 
other was a page-and-a-half long.
    In contrast, every day, Saddam has fought for the minds of 
the Arab world. He has been able to capture the hardship issue. 
He has been able to find, among people who do not understand 
Iraq, many supporters that blame the United States and 
sanctions for actions which are more those of Saddam than any 
impact of the U.N. Unless we are willing, now, to try to 
recover smart sanctions will simply be a step forward toward no 
sanctions, and the question really is, can the State Department 
have that kind of effort.
    Fifth, and I say this in my testimony, the United States 
must think now about the future of Iraq's Kurds. I was in the 
U.S. Embassy in Iran in the early 1970's. I watched the United 
States support the Shah of Iran in using the Kurds as a 
political tool. I watched them abandoned after the Algiers 
Accord. I think we must have a clear policy toward autonomy, 
clear demands as to what Kurdish rights should be.
    And to go back to the no-fly zones, I would absolutely 
agree that if we withdrew from Turkey, we withdraw from any 
protection of the Kurds, and whether the result is an immediate 
occupation and slaughter, or the kind of more patient and 
systematic killing which Saddam has used on other occasions, 
those are the only two alternatives.
    Sixth, we talk about smart sanctions, but I have not heard 
anything about energy. In our projections we say, in the 
Department of Energy, we want Iraq's production capacity to 
increase from roughly 2.8 million barrels a day today to 6.2 
million in 2020, and we see Iraq as a critical component of our 
future energy strategy. It is far from clear that that makes 
sense, but somebody has got to resolve the issue.
    Finally, we need to revitalize the other aspects of 
military containment. One key goal is to improve and maintain 
the forward presence rapid-deployment capabilities and war-
fighting capability we have today.
    Another goal is to stop preaching. We have got to stop 
issuing strong statements and then not following them up with 
decisive military action. The best description I can give of 
military options under the Clinton administration was that the 
President spoke stickly and carried a big soft. I wish there 
were some better or nicer way to put it, but we need a formal 
doctrine that states our ``red lines,'' that states quite 
clearly what we demand in terms of gulf security, that we will 
remain committed to military containment and close commitment 
with our gulf allies as long as there is threat from Iran and 
Iraq.
    We need to define the kind of Iraqi action that would lead 
us to launch military action and, if Iraq does take such 
action, we need to strike so hard and so decisively that the 
military and political costs to Saddam will outweigh the 
political propaganda gains he makes from small pinprick 
strikes. In short, we would be much better off if we struck 
once every 2 years in ways which have a crippling impact on 
some part of Saddam's military machine, than through endless, 
pointless missions against air defense targets he can 
reconstitute.
    We also have to persist to the point where we are 
successful. What we did on September 16 was to carry out half a 
strike with no followup. We did not send a message of decisive 
action. Our message, I suspect, to Iraq and the gulf was we may 
have hit a third of our targets. That is not victory.
    Thank you.
    [The prepared statement of Mr. Cordesman follows:]

               Prepared Statement of Anthony H. Cordesman

      iraq and america's foreign policy crisis in the middle east
    A decade ago, under a different President Bush, we emerged out of a 
major foreign policy crisis in the Middle East with the most 
advantageous position we had had since World War II. We had led a broad 
coalition to victory against Iraq. In the process, we demonstrated that 
we could be a strong and reliable friend of the Arab world, and we 
created many of the conditions that made a search for a comprehensive 
Arab-Israeli peace process possible. We created the conditions for 
military containment of both Iran and Iraq, we had the firm support of 
our European allies, and we built bridges to Russia and China that 
allowed us to act together in dealing with peace and security issues in 
the Middle East.
    We now face a foreign policy crisis in the Middle East under 
another President Bush that Secretary Powell's visit can only begin to 
deal with. Part of that crisis is not of our making. The Middle East is 
all too correctly described as a region where nations, ``never miss an 
opportunity to miss an opportunity.'' Its leaders also tend to repeat 
the mistakes of the Bourbon dynasty in France, of which it was said, 
``They forgot nothing and they learned nothing.'' We have, however, 
made many serious mistakes of our own, and much of our present foreign 
policy crisis in the region is the result of self-inflicted wounds.
       iraq and the backlash from the arab-israeli peace process
    Iraq is one key area where we made such mistakes, but Iraq cannot 
be discussed without touching upon the Arab-Israeli conflict and our 
policy towards Iran. In the case of the Arab-Israeli conflict, we face 
months and probably years of backlash from the failure to create a 
peace between Israel and Syria and between Israel and the Palestinians. 
It may not be fair, but all sides blame the US for the failure to reach 
a peace over the last two years. The Arabs feel that the US tilted far 
too much towards Israel, and was not an honest broker. Many Israelis 
feel that the US rushed them into concessions that simply led to more 
Syrian and Palestinian demands and which could have compromised 
Israel's security. Both sides give us much of the blame for the Second 
Intifada, and in many Arab eyes we are almost as much to blame for each 
Palestinian casualty as Israel.
    Even in the eyes of some of our most sophisticated Arab allies, and 
the leaders of their countries, they feel we rushed a peace process 
forward as part of President Clinton's effort to redeem himself, we 
failed to consult, we did not listen to warnings that we played with 
fire in trying to force compromises across basic differences in goals 
and values, we created false expectations, and we had no exit strategy 
to deal with failure. There is a feeling that President Clinton acted 
as a political opportunist, and there is broad resentment of the 
tendency of senior officials like Secretary Albright to issue 
moralistic pronouncements and ignore the need to consult and listen.
    The end result is that Saddam Hussein has a powerful new weapon to 
use against the US, as do Iran's hard-liners and every extremist in the 
Middle East. Nations outside the region can play the peace and Second 
lntifada cards against us, as nations like France, China, and Russia 
do. In Saddam's case he attacks every moderate Arab regime as the ally 
of the US, and therefore the ally of Israel. He provides cash payments 
to every Palestinian casualty of the Intifada at a time no Arab 
moderate regime has kept its promises of aid to the Palestinian 
Authority, and he couples the hardships of the Palestinians to the 
hardships of his own people.
    Is this fair? Of course not! All sides in the region are far more 
to blame for their problems than we are. Should we tilt towards the 
Palestinians at the expense of Israel? Never! We will score no lasting 
successes, and earn no enduring gratitude, by favoring one set of 
allies at the expense of another and those who truly oppose us and our 
values cannot be appeased.
    What we can do, however, is to change the context of our policy 
towards the Arab-Israeli conflict in ways that Secretary Powell may 
already be attempting. First, we can get out of the middle and stop 
trying to force the pace. We can actually stop and seriously listen to 
our allies in Egypt, Jordan, and Saudi Arabia as well as Israel. We can 
pay serious attention to the views of Europe, and try to bring Russia 
actively back into the peace process.
    Second, we can clearly define our policy towards Israel. We can 
make it clear that no amount of threats or outside pressure will block 
the flow of aid and our commitment to Israel's security. At the same 
time, we can make it equally clear that our commitment is to Israel and 
not to the government of the day. Hopefully a unity government will 
emerge in Israel that will continue to seek an end to violence and 
which will act prudently and pursue peace. If, however, the Sharon 
government moves towards extremes, does not sincerely support the 
search to end violence and a move back towards a peace process, and 
offers the Palestinians and Syria no way out, we should react 
accordingly. We should clearly and openly oppose it on these issues 
without reducing our strategic commitment to Israel in any way.
    More broadly, the Bush Administration can provide added 
humanitarian aid to the Palestinians. It can also firmly oppose the 
kind of political opportunism that seeks to relocate the US embassy to 
Jerusalem before there is a peace, or which tries to legislate that the 
same Palestinian leaders we need in trying to end the violence should 
be treated as terrorists.
                    iraq and us policy towards iran
    Iran is another key player in this strategic game. It is a 
counterweight to Iraq, and its moderates and the faction that supports 
President Khatami offer some hope that Iran will evolve to the point 
which it plays a constructive role in the region. This does not mean 
that the US should tilt towards Iran to counter Iraq. We should, 
however, realize that the same steps we should take to revise our 
policy towards the Arab-Israeli conflict will undercut the hard-liners 
and extremists in Iran. We should not soften our diplomatic opposition 
to Iran's opposition to the peace process and Israel's very existence, 
support of the Hizbollah and violent Palestinian extremists, to Iran's 
proliferation, and to Iran's build-up of its military capabilities to 
threaten the flow of shipping and oil through the Gulf.
    At the same time, we recognize that President Khatami and his-
supporters do represent a major political shift, and take every valid 
opportunity to create correct diplomatic relations and a government-to-
government dialog. We should support the Saudis, other Southern Gulf 
states, and Europe in trying to create relationships that encourage 
moderate Iranian behavior.
    We should allow the Iran-Libya Sanctions Act to sunset and revoke 
the executive orders that block trade and energy investment in Iran. 
These sanctions have not affected Iran's behavior in any way. They have 
cut us off from Iran's moderates and business class, they have 
strengthened hard-liners in demonizing us, they have encouraged Iran to 
proliferate, and Iran has steadily increased its real arms imports and 
military expenditures since they were passed. Strategically, they have 
limited Iran's ability to maintain and expand its energy exports at a 
time when an increase in world oil production capacity is critical to 
limiting the rise in energy costs.
              iraq and the need for new us policy options
    This brings us to Iraq, and we need to recognize that there are no 
easy and quick solutions. To being, we need to understand that no other 
nation in the world believes that Saddam Hussein's tyranny is fragile, 
or will support us in military adventures to overthrow his regime, even 
if we are willing to attempt them. No regime in the region trusts 
Saddam or is free from fear of him, but key allies like Kuwait, Saudi 
Arabia, and Turkey regard the Iraqi opposition outside Iraq as weak, 
divided, and venal. They record the support that the Congress and 
Clinton Administration gave to movements like the Iraqi National 
Congress as a political farce that has little real support beyond 
Washington's Beltway and the lobby of the Dorchester Hotel. They fear 
these games could drag them into dangerous and unpopular military 
adventures, divide Iraq in ways that would favor Iran's hard-liners, 
and end in a ``Bay of Kurdistan'' similar to the Bay of Pigs. Many 
other Iraqis who do oppose Saddam also regard the Iraq Liberation Act 
and its selective aid to part of the opposition as the kind of overt US 
support that labels all outside opposition as traitors.
    There is a good case for mounting a systematic covert operation to 
try to overthrow Saddam's regime. There is an equal case for working 
with our allies--particularly Kuwait and Saudi Arabia--to say that we 
would waive reparations and debt repayments if a new regime overthrew 
Saddam. We should also work with our regional allies to find some 
common approach to Iraqi Kurdish autonomy that we can advocate to 
protect the Kurds. The plain truth of the matter, however, is that 
Saddam's regime is not fragile or unpopular with Iraq's military, 
security forces, and elite. Saddam also now has enough revenue from 
smuggle oil exports and his manipulation of oil for food to buy all of 
the support he needs. His supporters now live in relative luxury and 
economic sanctions hurt only the Iraqi people.
    This says a great deal about the future of sanctions. We have 
absolutely no chance of unifying the UN Security Council around 
revitalizing economic sanctions or creating support for controls on 
energy investment in Iraq. France, China, and Russia will oppose us and 
so will every Arab state and developing nation. Regardless of what 
Iran, Jordan, the Kurds, Syria, and Turkey say, they also will not 
crack down on Iraqi petroleum smuggling. Here, the Clinton 
Administration has also left the Bush Administration with a devastating 
legacy.
    The Clinton Administration never took an effective lead in trying 
to really make oil for food work and to ensure that the plight of the 
ordinary Iraqi was eased. It made few efforts to counter Saddam's 
endless propaganda effort to exploit the hardship of his own people, 
and the efforts it did make were so sporadic and lacking in depth as to 
be totally unconvincing. Few in the Arab world know that nearly half of 
the flow of goods under oil for food have been held up or manipulated 
by Saddam's regime.
    It is simply too late to win this aspect of the battle for the 
minds of the Arab world, although the Bush Administration has every 
incentive to carry out a systematic effort to refute Saddam's charges, 
make it clear that he is the principal problem in oil for food, and 
that he systematically lies about the causes and scale of Iraq's health 
problems, infant mortality, and other social problems.
    The US can still, however, work with its allies to make sanctions 
what Secretary Powell has called ``smart,'' or ``narrow but deep.'' 
Many nations will join us in opposing any lifting of the sanctions on 
Saddam's arms imports, and imports of dual-use items to make 
conventional weapons, missiles, and weapons of mass destruction. Other 
supplier and exporting nations will join in if they receive the ability 
to make energy investments, can carry out wide ranging civil trade, and 
can exploit other business opportunities. Arab leaders can justify such 
efforts to their people both on the selfish grounds they aid their 
national security and on the broader grounds they prevent Saddam from 
diverting funds away from Iraq's true economic needs.
    There are several key components to a new US approach to dealing 
with the US foreign policy crisis in the Middle East. First, US must 
redefine its military position in containing Saddam. The US must make 
it clear that its military presence in the region is tailored only to 
deterring military adventures against the Kurds and other states, is 
the minimal force required, and works in consultation with Turkey and 
our Arab allies. It must repeatedly explain the size and role of our 
forces in depth, and it must explain every military action in equal 
depth. The day we could simply announce air strikes as part of 
enforcement of the No Fly Zones is over. So is the day we could 
trivialize our military action or describe them as business as usual. 
Even the best Pentagon briefings--and they have generally been horribly 
vague and inadequate--are not a substitute for leadership from the 
President and Secretary of State on this issue, or for detailed 
consultation with our allies. Moreover, when we act, it should be for a 
clear purpose and so decisively that it truly deters Saddam, and not be 
at a level where any military damage we do is offset by Saddam's 
ability to use it for propaganda purposes.
    Second, we should not give up totally on resuming UN inspections 
and bring UNMOVIC back into Iraq. However, we must not have any 
illusions and continue to treat Iraqi proliferation with the Clinton 
Administration's ``benign neglect.'' In the real world, it has been 
three years since UNSCOM could really carry out effective inspections 
and the International Atomic Energy Agency (IAEA) never really 
challenge Iraq as effectively as it should. UNMOVIC may be a useful 
deterrent to open, large-scale Iraqi action but it does not have the 
leadership or international support to really carry out effective 
inspections and find the kind of covert cells and new Iraqi efforts 
developed over the last three years. If anything, UNMOVIC could simply 
become the political cover for a UN effort that said it could find no 
evidence of Iraqi efforts. We need to decouple the containment of 
Iraq's proliferation from the issue of UN inspection. We need to 
provide a comprehensive picture of what Iraq is doing and the risks 
involved, and make it clear that inspection is not going to be an 
answer to sustained military containment. If we do not, we will send 
mixed and ineffective signals, and we may well see the UN turned into a 
tool that will give Saddam a false blessing and a license to 
proliferate.
    Finally, we should recognize that key Gulf allies like Saudi Arabia 
feel irritated and neglected. They cannot openly express their contempt 
for the Clinton Administration, but they feel it deeply. They see the 
last few years of President Clinton's efforts to rush forwards towards 
a final Arab-Israel peace settlement as the act of an opportunist who 
pressures them for his own political advantage. They feel they came 
under intense pressure from his Secretary of Energy to increase 
production and cut oil prices, reacted by making quiet concessions, and 
were then embarrassed in public while he tried to run for Vice 
President. They feel the US ignored Saudi efforts to create an 
institutionalized dialogue between importers and exporters that could 
help create fair and stable prices. They feel Clinton's Secretary of 
State and Secretary of Defense lectured them, rather than consulted, 
and never really listened. The Saudi's also feel Clinton's trade 
representative deliberately ignored their efforts to join the WTO. We 
do not need to sacrifice a single US interest to consult with our Gulf 
allies, listen to them, and engage in a balanced diplomacy that gives 
them the priority they deserve. Secretary Powell has already advocated 
such a balanced diplomacy and he is all too correct in doing so.
 the specific steps we should take in improving our policy towards iraq
    Secretary Powell's call for ``smart sanctions'' against Iraq is 
long overdue, and can help to correct a critical weakness in our 
foreign policy. It was clear by the mid-1990s that broad economic 
sanctions were not going to bring down Saddam Hussein, halt Iraqi 
efforts to proliferate, or cripple the ability of Iraq's military and 
security forces to repress the Kurds, put down Iraq's Shi'ite 
opposition, and threat Kuwait and Saudi Arabia. It was equally clear 
that they continued to impoverish the ordinary Iraqi, and block Iraq's 
economic development.
    Nearly half a decade later, sanctions have eroded to the point 
where Iraq has over one billion dollars of uncontrolled income from 
smuggled petroleum exports. Its ``legal'' oil revenues in 2000 are 
estimated at $21.6 billion, which is 89% higher than in 1999, and more 
than 170% higher than in 1988. Saddam can now use a combination of this 
income and the holes in the controls on the UN oil for food program, to 
buy the loyalty of his power elite, the security forces, and Republican 
Guards.
    It makes good, and long overdue, sense to refocus the sanctions 
effort to ensuring Saddam cannot import conventional arms and the 
technology and equipment to produce weapons of mass destruction. At the 
same time, it is equally clear that ``smart sanctions'' are not enough 
and that the Bush Administration could easily repeat some of the most 
chronic failures of the Clinton Administration. The US needs more of a 
strategy than can fit on a bumper sticker, and more thought than can 
fit in a fortune cookie. To be specific, ``smart sanctions'' can only 
work if they are part of the following seven major changes in US policy 
towards Iraq:

  <bullet> First, the US must be prepared to confront potential and 
        actual suppliers. It is uncertain that the US can get even pro 
        forma Security Council agreement to refocusing sanctions in 
        ways that give them real teeth. The waters and borders of Iran, 
        Jordan, Syria, and Turkey are not going to be sealed, and dual-
        use items and military spare parts are notoriously hard to 
        police. It will take a massive intelligence effort and 
        confrontational diplomacy with suppliers, and the nations on 
        Iraq's borders, to make ``smart sanctions'' work. Talk and good 
        intentions are cheap; effective action is difficult and costly.

  <bullet> Second, the US must come to grips with the failure of the UN 
        inspection effort and the fact UNMOVIC might do more harm if it 
        did return to Iraq than good. Effective UN inspection really 
        halted in late 1997, and Desert Fox did virtually nothing to 
        really inhibit Iraq's effort to proliferate. Iraq has had years 
        to create an effective network of cells and dual use efforts to 
        develop a break out capability in chemical and biological 
        weapons, improve its nuclear weapons designs, and develop a 
        missile program. UNMOVIC is still banned from Iraq, but if it 
        did return, it might well operate under so many political 
        constraints that it would end up certifying Iraqi compliance, 
        rather than act as an effective deterrent to Iraqi action. The 
        Clinton Administration dodged this issue for its last two years 
        in office, but ``smart sanctions'' require a clear and detailed 
        plan of action.

  <bullet> Third, the US must face the reality of the ineffectiveness 
        of the Iraqi opposition, shift to a long-term covert operations 
        effort, and focus on the continuing need for military 
        containment. The Bush Administration threatens to repeat the 
        mistakes of the Clinton Administration and Congress, and go on 
        backing weak and unpopular elements of the Iraqi opposition 
        like the Iraqi National Congress. These movements have no 
        meaningful support from any friendly government in the region, 
        and they have no military potential beyond dragging the US into 
        a ``Bay of Kuwait'' or ``Bay of Kurdistan'' disaster. The Turks 
        fear them as a way of dividing Iraq and creating a Kurdistan, 
        and the Arabs fear them as a way of bringing Iraq under Shi'ite 
        control and/or Iranian influence. Worse, they are no substitute 
        for a major covert effort to overthrow Saddam from within, and 
        overt US funding of such movement tends to label the Iraqi 
        opposition as US sponsored traitors. We need to understand that 
        containing Iraq is far more important than legislating the 
        funding of a forlorn hope.

  <bullet> Fourth. the US must launch an actite truth campaign to 
        confront Saddam on oil for food and all of the other issues 
        where he relies on lies and exploitation of tensions in the 
        region. The Clinton Administration committed a massive foreign 
        policy mistake by failing to engage Saddam over his lies and 
        propaganda. Aside from some sporadic and truly inept press 
        efforts, it allowed him to capture Arab and world opinion in 
        lying about the problems in oil for food and the true causes of 
        the suffering of the Iraq people. It did not engage him 
        actively on human rights inside Iraq, his attacks on Iraq's 
        Shi'ites, his continuing claims to Kuwait, or his threats to 
        Iraq's Kurds. It postured about palaces to the American media, 
        and allowed Saddam to turn UN reporting into a propaganda 
        defeat. ``Smart sanctions'' will not work without a massive and 
        continued truth campaign to fully explain the true character of 
        the Iraqi regime that is tailored to Gulf, Arab, and world 
        audiences.

  <bullet> Fifth, the US must think now about the ultimate future of 
        Iraq's Kurds. The erosion of sanctions poses immediate threats 
        to Iraq's Kurds. While the Clinton Administration chose to 
        ignore it, Iraq has been ``cleansing'' oil-rich areas in 
        Northern Iraq of Kurds and forcing them into other areas or the 
        Kurdish security zone. It is not clear we can prevent this, but 
        getting support for ``smart sanctions'' and protecting the 
        Kurds means we need a clear US policy on the future of the 
        Kurdish security zone and a definition of Kurdish autonomy that 
        will set policy goals to protect the Kurds while defusing fears 
        Iraq will divide or break up.

  <bullet> Sixth, the US must have a clear energy policy towards Iraq. 
        Iraq is a nation that has some 11% of all the world's oil 
        reserves and that has not had any coherent energy development 
        efforts since the beginning of the Iran-Iraq War in 1980. US 
        government projections call for Iraqi oil production capacity 
        to more than double from around 2.8 million barrels a day to 
        6.2 million barrels in 2020. These increases in Iraq's oil 
        exports are also critical to any hope of its economic 
        development. Massive energy investments are required, and take 
        years to a decade to pay off. They also can provide the Iraqi 
        regime with major new resources. ``Smart sanctions'' must be 
        coupled to a clear energy development policy.

  <bullet> Finally, the US must revitalize the other aspects of 
        military containment. The true subtext of a ``smart sanctions'' 
        policy is that we will need a major forward military presence, 
        rapid deployment capability, and war fighting ability to check 
        an Iraqi attack on Kuwait or threat to use weapons of mass 
        destruction indefinitely into the future. The Clinton 
        Administration spoke stickly and carried a big soft. It 
        ``nickel and dimed'' its use of force to contain Iraq, issued a 
        series of abortive threats over UN inspections, launched Desert 
        Fox, and then halted it before it could be effective. Two years 
        of pin-prick strikes over the ``No Fly Zones'' have done as 
        much to give Saddam a propaganda victory as they have to hurt 
        his air defenses.

    We need a formal Bush Doctrine that states our redlines, that says 
quite clearly that Gulf security and the continued flow of oil is a 
vital US national security interest, and that we will remain committed 
to military containment and close cooperation with our Gulf allies as 
long as there is a threat from either Iraq or Iran. We need to define 
the kind of Iraqi action that will lead us to launch military action, 
and if Iraq takes such action, we need to strike so hard and so 
decisively that the military and personal cost to Saddam is so 
unaffordable that any political propaganda gains he makes are minor in 
comparison. The one round of half-successful strikes the Bush 
Administration launched on February 16th is Clintonesque at best. 
``Smart Sanctions'' require a clear Bush Doctrine and a clearly defined 
commitment to decisive force.

    Senator Brownback. Thank you for that strong statement. I 
will look forward to further discussion with you.
    Dr. Halperin, thank you for joining the committee. We look 
forward to your testimony.

STATEMENT OF DR. MORTON H. HALPERIN, SENIOR FELLOW, COUNCIL ON 
               FOREIGN RELATIONS, WASHINGTON, DC

    Dr. Halperin. Thank you, Mr. Chairman. It is a great 
pleasure for me to be here. I have a written statement that I 
would like to ask to be made a part of the record, and I would 
like to summarize it and try to particularly talk about points 
where I either disagree or have an additional element to bring 
to bear than what we have heard so far.
    Senator Brownback. If you agree with some of them, too, you 
can mention that.
    Dr. Halperin. I start, I think, where all of the witnesses 
are, and where I think all of you are as well. That is to say, 
Iraq is a serious threat. Its leadership is committed to 
conventional aggression and conventional pressure. Its 
leadership remains committed to developing weapons of mass 
destruction and if we fail to contain that, it poses not only a 
direct threat, but a threat to our containment of nuclear 
weapons policy as a whole. We cannot succeed in the 
nonproliferation policy if we do not succeed in stopping the 
Iraqi program.
    Third, I think our other policies in the Middle East are at 
risk as long as we do not have an Iraqi policy that has the 
support of the Arab countries, and inevitably interacts with 
their dislike of our policy in the Middle East peace process 
and, I think, undermines our effectiveness in both areas.
    Finally, an area that has not been mentioned, but to me is 
of great concern, is if the Iraqi sanctions are seen to fail it 
will undercut one of the most important instruments of policy 
in the police cold war period, and that has been our ability to 
persuade the Security Council to impose sanctions in situations 
where we thought that was in our interests.
    We were able to do that in Libya, for example, and finally 
get the trial of the terrorists who we believe blew up the 
airplane. We were able to get it against Serbia and Yugoslavia, 
and it played an important role in the change of regime there, 
and we have been able to get it in other situations as well.
    My fear is that, as these sanctions erode, people are 
coming to understand that there is no legal mechanism to 
enforce these sanctions, and that if other countries choose 
simply not to obey them, that they can, in fact, get away with 
it. My fear is that not only will we wake up one day and 
discover that the Iraqi sanctions are gone, with, I think, very 
serious implications for Iraq policy, but that it will become 
increasingly difficult in the future to persuade countries to 
honor other sanctions imposed by the U.N. Security Council.
    These sanctions are often dangerous for the countries in 
the region. They are always expensive for the countries in the 
region, because they lose trade and they lose income. They have 
nevertheless felt a legal obligation to do so, and I think the 
undercutting of that would have very serious repercussions for 
American policy. So I think whatever we do as we move forward, 
we need to keep in mind the broader implications of what is at 
stake if we allow these sanctions to fail.
    I think that the differences that we have in this panel and 
in general in the country about Iraq policy is not about how 
dangerous Saddam Hussein is, it is not about the threat that he 
poses, it is not about the importance of containing him, but it 
is about what we should do about that. I think that turns on 
different assessments of what is feasible, and those 
assessments do not turn on any secret information.
    My sense is that inside the government and inside the 
intelligence community there is as much disagreement about the 
feasibility, for example, of getting rid of Saddam Hussein by 
supporting the opposition, as there is in the public as a 
whole. This seems to turn as much on people's temperament and 
what they would like to believe than it does on any concrete 
facts.
    Now, as I detail in my prepared statement, and I will not 
go into here in detail, I think the most dangerous option is 
one of continuing to drift, of continuing to allow the 
sanctions to slowly erode while we try to keep them together, 
of continuing efforts to bring back the inspectors, which I 
think simply will not lead to the inspectors being brought back 
in, of continuing military operations, which has already been 
suggested does not do very much--it is one thing to maintain 
the principle firmly of the no-fly zones and to make it clear 
that we will not permit military operations. It is another to 
continue to fly in ways that do not seem to send any clear 
message, clearly does not have any impact on Iraqi military 
capability.
    And yet this both undercuts support for the policy in the 
region and runs the risk that American lives will be taken for 
no precisely clear purpose. So I think we need to look at 
alternatives, and I think that there are two basic options.
    One is to try to get agreement within the Security Council, 
particularly among the P-5, and with the countries in the 
region, on a new regime that would remain in place until there 
was a fundamental change in the Government of Iraq, and that, I 
think, would have several elements.
    First, I think it would require that we drastically reduce 
the list of items that Iraq is prohibited from importing only 
to weapons themselves and to real dual-use items. In return, 
seek agreement, which I believe we could get, that the control 
over Iraqi revenues for the oil they are permitted to sell, to 
make sure that these expenditures do not go for the 
unauthorized items, comes in place and remains in place until 
there is a fundamental change in policy.
    Second, I believe we need to recognize that a return of 
U.N. inspectors is very unlikely and, as has already been 
suggested, even if it occurred, it is not clear that it would 
do very much good, given that they clearly will not have the 
freedom that we want, and also that they have had time to hide 
their weapons programs some place else.
    Instead, I think we need simply to in effect say to the 
Iraqi Government that these sanctions will continue until you 
find a way to persuade the international community that you 
have abandoned your efforts to develop weapons of mass 
destruction.
    I do not believe that Iraq could do that absent a 
fundamental change in the regime and a putting in place of a 
very different kind of government. So my view is that this set 
of sanctions needs to remain in place until there is a change 
in government, but that we ought to put the onus on Iraq, 
rather than continuing these ineffective efforts and, I think, 
ultimately futile efforts to bring back inspectors.
    In the case of the no-fly zone, what I think we need to do 
is maintain clearly our assertion of the right to do it, but 
also to make clear what our red lines are, that we will not 
permit the Iraqis to move north, that we will not permit them 
to move against the people in the southern part of their 
country, or to mobilize against Kuwait or any other country. If 
they do that, we will respond not with the kind of very limited 
military action we have done regularly, or even the kind of 
stepped-up military action that we saw a week or so ago, but 
with serious and decisive military action of a kind that would, 
in fact, materially affect the capability of the Iraqi military 
forces.
    I think we should try, and I think we could succeed in 
getting agreement from the countries whose bases we would need 
for those operations, that this changed posture would have the 
support and their agreement that decisive military action would 
take place if any of these red lines were crossed.
    Finally, as part of this I think we need to try to cut down 
on the smuggling, which puts in the hands of the Iraqi 
leadership funds that they could use for their own purposes, 
and which is the most dangerous trend that is now developing.
    We saw in the press that Secretary Powell has raised this 
issue with the Syrians and, I believe, is part of the kind of 
change in policy that I have suggested here, that we could get 
agreement from the countries that have been running pipelines 
outside the embargo, to bring those sales within the U.N. 
system so that we control what Iraq does with the money.
    In order to get the support of other key countries, 
including the Russians and the French for this, I think we also 
ought to consider whether some of the funds that Iraq brings in 
is used to pay off their very large debts to foreign countries, 
including in particular, France and Russia. I think it is no 
accident that the French and the Russians have been pressing 
for a relaxing, if not elimination of the embargo, and that 
these countries are very countries to which Iraq owes a great 
deal of money.
    I think it is not inconsistent with the embargo to begin to 
divert some of the funds to pay off those debts, not only to 
those countries, but to many other countries, as part of the 
set of things that the U.N.-impounded money is used for.
    As everybody has said, I think there can be no doubt to 
anybody who looks at it objectively that the embargo plays no 
significant role in the humanitarian crisis in Iraq. Iraq has 
enough money from the U.N. food for peace program, it has 
enough money from the illegal smuggling program, to deal with 
those problems. It is clear that the leadership prefers to 
spend its money on statues, on palaces, and on weapons, and 
that you could give them a lot more money and the problem would 
not change.
    Nevertheless, it is also the case that we have paid a 
significant price because people believe that somehow that we 
are at fault, I do not believe more clever public diplomacy 
will solve this problem. I think that a clear willingness to 
let Iraq spend money on many other things is the key to 
beginning to turn this problem around.
    Now, as we have heard before, and I am certain we will hear 
from the last panelist, there is an alternative policy, and 
that is to arm the opposition and to try to get rid of the 
current regime quickly. I think there is no doubt that it would 
be in our interest to do so. I think one can raise serious 
questions about whether we should have done it when we had the 
chance to do so, when we had an overwhelming army in the field, 
and we had defeated the Iraqi military force, but I do not 
think we should allow ourselves the luxury of believing that 
somehow this can be done on the cheap.
    If we arm people and put them in the country, if we declare 
and support the creation of safe zones in the north or in the 
south, we have to mean it, and that means we have to be 
prepared to commit as much military force as it will take to 
hold those zones against an attack, and it means we cannot wait 
until they are attacked.
    We do not have forces now in the region that can deal with 
that. We twice now encouraged people to act and then stood 
there while they were attacked, and I believe we should not 
have done it either of those times, and I believe we should not 
do it again.
    If we are serious about this, it means a buildup of 
American military forces, maybe not to the level of the Persian 
Gulf war, but significantly more than we now have, and it means 
that we have to decide in advance that an attack on those 
forces is the equivalent of an attack on the United States and 
we are ready to go back to war against Iraq.
    Now, I do not believe the American people are ready to 
support that. I do not believe the Congress is ready to support 
that, but if the administration is persuaded that that is the 
route to go, I think before we start arming people who are 
going to need our military support, we need to have that 
debate. We need to make that decision. Since I continue to 
believe that the Constitution requires the Congress to 
authorize us to go to war, I think we need a Resolution of the 
Congress that says that we are prepared to protect these people 
and to go to war to defend them.
    I would welcome that debate. I think people would at the 
end of the day say that the American interests are not such 
that we ought to do that, but the policy of containment that I 
have outlined is more prudent and more consistent with our 
interest, but what I think would be a disaster would be to once 
more encourage people to rise up and then to stand there and 
watch them be slaughtered.
    Thank you, Mr. Chairman.
    [The prepared statement of Dr. Halperin follows:]

              Prepared Statement of Dr. Morton H. Halperin

    Mr. Chairman: It is a great privilege and a pleasure for me to 
testify once again before this very distinguished committee. I first 
had the opportunity to appear before this committee when it conducted 
far ranging hearings on China in 1966. I believe that we are as 
urgently in need now of a serious debate on Iraq, as we were then on 
China, and I commend this committee for holding these hearings.
    There can be no doubt that what happens in Iraq and how we manage 
the process of developing a consensus in the international community on 
Iraq is of enormous importance to American and international security. 
This is so for at least four reasons.
    First, as we learned dramatically a decade ago, Iraq has both the 
intention and the capability to threaten its neighbors. There is no 
reason to think this has changed. If Iraq were to conclude that the 
United States were no longer willing to use force to protect its 
interests in the Gulf, it would be sorely tempted to press its 
neighbors. Preventing conventional aggression by Iraq and maintaining 
the military relations necessary for us to respond effectively if 
deterrence fails, must be a high priority for the United States.
    Second, Iraq poses a direct and immediate threat to our non-
proliferation policy. An Iraq with missiles and nuclear or biological 
weapons would pose a threat to all nations within its reach, including 
Israel. Moreover, our efforts to extend the principles of 
nonproliferation of weapons of mass destruction to the arc of states in 
this area would be fatally undercut, if we are unable to prevent Iraq 
from developing such weapons in the face of very explicit United 
Nations Security Council resolutions.
    Third, our efforts to maintain support for the Middle East Peace 
Process among the states of the region and to have their assistance on 
other critical issues, including the price and supply of oil, 
critically depends on our securing the support of the nation's of the 
region for our Iraq policy. It is not only that the embargo will 
continue to erode if it lacks support in the region, but it is also the 
case that our ability to continue to have the support that we need on 
other issues will be jeopardized if we pursue a policy towards Iraq 
which lacks support in the region.
    Finally, if we permit the Iraqi sanctions to continue to erode in 
the face of a clear Security Council mandate, we run the grave risk of 
undermining the respect for Security Council sanctions, which have 
served American interests well in many parts of the world.
    One of the most important and positive developments of the post-
cold war period, was the willingness of the Security Council to use its 
powers under Chapter VII to impose economic sanctions on states for a 
variety of infractions of the basic norms of international law and the 
willingness of almost all states to abide by these rules. We need to 
remember, however, that there are no effective means to force states to 
comply with such embargoes and that they often do so at significant 
economic cost. If the Iraq sanctions simply fail it will be much harder 
to get the Security Council in the future to impose such sanctions and 
to get states to obey them.
    I start with these points, Mr. Chairman, to underline two basic 
themes. There can be no question that the stakes are high in how we 
deal with Iraq. Where there are differences of view, and surely there 
are, regards how to accomplish these specific goals in ways which are 
compatible with other world-wide interests. The differences of opinion 
about what the United States should do in regard to Iraq reflect much 
less disagreements about the threat posed by Iraq, than differences 
about how effective different courses of action might be. This reflects 
the genuine difficulty in ferreting out the facts and interpreting 
them. I do not believe that disagreements result from differing access 
to classified information. People with full access disagree with each 
other as much as they do with those who rely entirely on unclassified 
information.
    I believe that there are three options that are likely to compete 
for adoption as the Bush Administration reconsiders Iraq policy. The 
first would be a continuation of the recent trends. The second would 
involve a refocusing of the sanctions. The third will give higher 
priority to attempting to replace the current regime. In short, I 
believe that the first option will inevitably end in disaster, and the 
third simply cannot be implemented successfully. This leads me to 
support the second option of focusing on the Iraqi program to develop 
weapons of mass destruction and its capacity to threaten its neighbors.
    Over the past several years there has been a steady erosion in the 
key elements of our current Iraq policy:

  <bullet> We have gone from demanding sweeping changes in Iraq, beyond 
        the end of the program to develop weapons of mass destruction, 
        before we would agree to end the embargo, to making ending the 
        weapons of mass destruction program essentially the sole 
        criteria.

  <bullet> We have gone from demanding the right of UN inspectors to go 
        everywhere to having no inspectors.

  <bullet> We have gone from severely limiting how much oil Iraq could 
        sell to permitting Iraq to sell as much oil as it can pump.

  <bullet> We have gone from severely limiting what Iraq can buy with 
        the funds that it gains from its oil sales to permitting it to 
        purchase a much larger--but still very limited--range of items.

    And at the same time, as President Bush has noted, the embargo is 
becoming less and less effective as more oil is sold outside the 
proscribed UN sanctioned scheme. While the changes that have been made 
move us closer to what other countries, especially France, Russia and 
our allies in the region want, there has not been a corresponding 
increase in support for our Iraqi policy. On the contrary, support 
continues to decline. Incremental changes simply erode our position 
without gaining more support for what remains in place.
    If we continue down this path Iraq will be able to buy more and 
more goods within the sanction system, and will have more and more 
funds from sales conducted in violation of the UN Security Council 
embargo. One day we will wake up and the whole world will know that the 
sanctions are no longer working and many more states will feel free to 
ignore them. The results will be disastrous not only for our Iraq 
policy, but for our ability to employ UN sanctions in other situations 
and to have states feel that they have an obligation to act consistent 
with UNSC resolutions under Chapter VII of the UN Charter.
    Despite these clear dangers, the pressures within the government to 
make only incremental changes in policy are so strong that it will take 
an act of will with substantial Congressional and public support to 
move decisively.
    Part of the task is to illuminate what the real options are. That 
is why these hearings are so important and why I very much welcome this 
opportunity to lay out the option which I believe is most consistent 
with American interests.
    Our concerns about Iraq relate primarily to its effort to develop 
weapons of mass destruction and to threaten the use of force against 
its neighbors. If we are to have any chance of keeping the alliance 
against the current Iraqi regime together we must focus on these 
concerns. In order to do that we should do the following:

  <bullet> Drastically reduce the list of items which Iraq is 
        prohibited from purchasing only to weapons themselves and to 
        real dual use items which would directly contribute to 
        development of weapons of mass destruction. In return seek UNSC 
        agreement to have the UN sanctions committee continue to 
        control the revenue Iraq receives for its oil sales so that it 
        can prevent expenditures on these few unauthorized items.

  <bullet> Recognize that efforts to persuade Iraq to permit effective 
        UN inspections on its territory are very unlikely to succeed. 
        Instead, focus on securing an agreement among the P-5 that the 
        controls on expenditures will remain in place until Iraq either 
        permits full inspection or finds some other affirmative means 
        to persuade the UNSC that it has abandoned its effort to 
        develop weapons of mass destruction or to threaten its 
        neighbors with conventional aggression.

  <bullet> Without abandoning our claimed right to enforce no fly zones 
        in the north and the south, curtail routine flights while 
        restating our red lines in a clear and unambiguous manner, so 
        that Iraq does not venture into the north, mobilize against 
        Kuwait or the population in the south of the country, or 
        threaten any other country in the region. Seek firm assurances 
        from our friends and allies in the region that bases would be 
        available for military operations, should we determine that 
        Iraq is resuming its efforts to develop and deploy weapons of 
        mass destruction or is mounting military operations.

  <bullet> In light of these changes, seek support from states in the 
        region for efforts to curtail the embargo-violating oil exports 
        and to help curtail illegal smuggling in and out of Iraq. We 
        would be able to argue that these can no longer be justified on 
        humanitarian grounds since the UN would now be permitting Iraq 
        to spend funds on all activities that might alleviate the 
        current suffering of the Iraqi people.

    In order to increase the attractiveness of this package to Russia 
and France we should consider permitting, or even requiring, that Iraq 
use some of its revenue from the sale of oil, to pay its existing debts 
to other nations including these two members of the UNSC. Our friends 
and allies in the region should find it easy to support this package 
since it will be clear that the embargo cannot be responsible for the 
continued suffering of the Iraqi people. Of course, that is the case 
now, since the Iraqi regime has at its disposal sufficient resources, 
both from the authorized sales and from the illegal sales, to do 
whatever is necessary to deal with the humanitarian tragedy in that 
country. The leadership prefers instead to use the funds for its own 
pleasures and for weapons. However, this new approach should reduce the 
criticism that the embargo is responsible for the humanitarian crisis.
    I believe this approach would gain the needed support of states in 
the region and of the UNSC and that it could be sustained over a long 
period of time until there is a change in the Iraqi regime.
    Of course, many believe that we should not wait for such change to 
occur on its own, and that we should instead implement the stated 
policy and goal of regime change by vastly increased support to the 
Iraq opposition.
    There can be no doubt that American and, indeed, international 
security interests, would be advanced if the current regime in Iraq 
were to be replaced by one which was more committed to meeting the 
obligations which Iraq undertook at the end of the Persian Gulf War. 
The question is only whether there are means to do that which are 
consistent with other American interests and priorities and which could 
get the necessary support from the American people and from other 
nations. I do not believe that there are such means.
    Certainly we have the conventional military power to defeat the 
Iraqi Army and occupy that country. There was a fleeting moment at the 
end of the Gulf War when it was plausible that the United States would 
use its military power to change the Iraqi regime. There is no longer 
any such possibility. Unless Iraq threatens a new act of aggression, 
the American people would not, and should not, support such an effort, 
nor would our allies and friends provide the necessary bases and 
support.
    Thus, those who want to remove the current regime advocate not an 
American military operation, but rather a ``covert operation.'' I do 
not believe there is any real option that involves only a covert 
operation. As in many previous situations, the real aim of the covert 
operation would be to try to compel the United States to use military 
force to rescue an operation which was failing. Indeed, most of the 
Iraqi opposition groups which seek the weapons to launch operations 
inside of Iraq warn us that they will expect American military support.
    Anyone advocating a serious and determined effort to change this 
regime in the short run by covert force, bears a very heavy burden of 
demonstrating that such an effort has a real chance of success without 
massive American military action. Otherwise we run a grave risk of once 
again abandoning brave Iraqis, who rise up in the mistaken belief that 
we will defend them, or find ourselves dragged into a war that we 
cannot sustain.
    Mr. Chairman, I very much appreciate this opportunity to present my 
views and stand ready to answer the questions of the committee.

    Senator Brownback. Thank you, Dr. Halperin, for your 
comments.
    Secretary Perle, we are delighted to have you before the 
committee.

STATEMENT OF HON. RICHARD N. PERLE, FORMER ASSISTANT SECRETARY 
     OF DEFENSE FOR INTERNATIONAL SECURITY, WASHINGTON, DC

    Mr. Perle. Well, thank you very much, Mr. Chairman, for 
inviting me to participate. I had prepared a list of issues 
that I thought, taken together, would help in an orderly 
discussion of what American policy toward Iraq should be. One 
of the consequences of speaking last after three intelligent 
presentations is, one is bound to be repetitive or 
disagreeable, and I intend to be both.
    The question has been posed and answered already: Is Saddam 
stronger now than he was 10 years ago? I think everybody agrees 
that he is. I think he is stronger than he was at this time 2 
years ago, and I am almost afraid to ask the question whether 
he is stronger than he was 2 days ago, but I feel bound to say, 
he probably is stronger than he was 2 days ago, because what 
has been presented in recent diplomatic efforts is not an 
indication of American strength but an indication of American 
weakness.
    That is to say, the clear impression has been created that 
the United States intends to relax the sanctions on Saddam. We 
can call them smart sanctions if we like, but what they will 
look like to the people of the region and, I think, the world, 
is a weakening of American resolve in the face of pressure on 
those sanctions, which is evident to everyone.
    Does Saddam now have weapons of mass destruction? Sure he 
does. We know he has chemical weapons. We know he has 
biological weapons. We have been unable to ferret them out and 
find them. We could not do it when we had inspectors on the 
ground. We will not be able to do it if the inspectors return.
    How far he has gone on the nuclear weapons side, I do not 
think we really know. My guess is it is further than we think. 
It is always further than we think, because we limit ourselves, 
as we think about this, to what we are able to prove and 
demonstrate and, unless you believe that we have uncovered 
everything, you have to assume there is more than we are able 
to report, and that is the history of these things, so I am 
sure Tony Cordesman would agree that every time you eventually 
get behind the lines you discover there was more there than you 
thought.
    How can we end his program to deliver weapons of mass 
destruction, to develop them and the means of delivering them? 
Well, I do not think we can, as long as Saddam is there. As 
long as he is in control of the territory and has sufficient 
financial and technical resources, he will continue to work at 
the development of those weapons.
    We cannot learn much, in my view, in the absence of U.N. 
inspectors. I do not think we would learn much if the U.N. 
inspectors were there. Even if the U.N. inspectors were there 
and free to operate in an effective manner, and the history 
suggests and the arrangements previously agreed to suggest that 
if inspectors were permitted to return, they would be under 
such constraints that their likelihood of their finding 
anything at all is very slim.
    After all, Saddam has had plenty of time to destroy the 
data base on which we once depended and, without intelligence 
of a kind that we can get independent of the inspectors, there 
is really very little that inspectors could do on the ground, 
so I do not think we would get any additional confidence if 
inspectors returned.
    I mention that because the suggestion has been made that we 
would welcome Saddam back into the community of civilized 
nations if he only agreed to U.N. resolutions providing for 
inspections. I think that would be a great mistake. Any 
agreement to inspections would be tactical and disingenuous, 
and the ticket to civilization should not be as cheap as that.
    Needless to say, the return of inspectors would hardly 
justify the normalization of relations with a man like Saddam. 
In fact, I do not believe we ought to even aspire to normal 
relations with a man who rules the way Saddam Hussein rules. 
There is nothing wrong with distinguishing between those 
national leaders with whom we wish to have normal relations and 
those who are beneath that minimal standard.
    Beyond the weapons of mass destruction, which I think we 
all agree is proceeding to develop, how should we regard the 
view that Saddam has been contained all these years during 
which we all agree the situation has gotten worse? Well, 
containment became a slogan rather than a policy some years 
ago. Contained maybe in the sense that Tony Cordesman referred 
to.
    He has been unable to buy weapons on the scale that he 
might have been able to buy weapons otherwise, but there was a 
parade, a military parade in Baghdad just a few days ago, and 
he demonstrated a thousand tanks, which I think is roughly 
double the number he had at the end of Desert Storm, so he has 
managed to double his tank force despite the constraints. 
Clearly, he would have done more if he had been able to do 
more, so in that rather narrow sense you could say that his 
military ambitions, at least for conventional forces, has been 
contained, but that is about all you can say.
    The sanctions I think everyone agrees are not working in 
the sense that they have not produced a significant change or, 
indeed, any change in Saddam's policy, in his ambition to 
acquire weapons of mass destruction, in his defiance of U.N. 
resolutions and the United Nations itself. They have been 
portrayed as damaging to the people of Iraq. I think everyone 
on this panel agrees that the suffering of the Iraqi people is 
being inflicted directly by Saddam Hussein himself. The food 
that could be dispersed under the existing program is not being 
dispersed. The same thing is true of medicine. Money is piling 
up in Saddam's bank. He is using the privation of his own 
people as a means of propaganda.
    Now, the point has been made this morning, and I think the 
Secretary of State has been attempting to argue this on his 
recent mission abroad, that we should organize the sanctions 
differently in order to make them more effective, and one of 
the things that he means by that is that smuggling activities 
should be legalized. We are not doing a very good job of 
controlling drugs, so let us legalize the drugs. That is rather 
analogous to that. But there is oil moving through a pipeline 
from Syria. That is smuggling, and Saddam has access to the 
money, so let us make it legal.
    The problem first of all is not money. Saddam has the money 
that I believe he needs to do what he is doing clandestinely, 
and since nobody envisions allowing him to spend that money 
openly on weapons, you have got to ask, what difference is it 
going to make to his program if the amount of money available 
to him is reduced? It is far from obvious, but the fact is that 
putting money into the U.N. program is no guarantee that it is 
kept from Saddam.
    Saddam has a variety of means that I have not heard 
discussed by which he siphons money out of the United Nations 
programs. It includes everything from front companies that do 
business with the United Nations that are, in fact, Iraqi 
proprietary companies, to the standard techniques that are used 
all over the world to evade restrictions on capital movements 
and the like, where imports are approved by the United Nations, 
invoices paid, and significant fractions of the money come back 
secretly to the regime.
    So Saddam, even within the United Nations program, is able 
to acquire all the money that he can usefully spend, in my 
view, on his clandestine program to achieve weapons of mass 
destruction, so at the end of the day you have to ask yourself, 
what is smarter or better about smarter sanctions? They are 
weaker sanctions, to be sure. They are intended to reshape 
opinion in the Arab world, by which I think we should mean the 
street, because Arab leaders are a good deal more sophisticated 
than we sometimes give them credit for, and they understand 
perfectly well what is going on, but we want to reshape the 
image in the street of the United States as punishing the 
innocent civilians in Iraq.
    Mr. Chairman, I come to the conclusion after all of this 
that we do not have an effective policy now. The changes that 
are being talked about will be no more effective than we have 
had in the past, that we will not be safe from the eventual 
development of the means of delivering weapons of mass 
destruction against us, against our friends and allies in the 
region, against our troops in the field, as long as Saddam 
Hussein is in power. The risk will continue until the day he is 
removed from office.
    Therefore, it seems to me worth concentrating our efforts 
on the one policy that could actually work, and that is the 
removal of Saddam from power. Now, it is not easy. I concede, 
it is not easy, but neither is it reasonable to characterize it 
as hopeless.
    For one thing, before characterizing any ambitious program, 
one ought to look at it carefully, and I have been struck by 
how much of the comment about the prospects for success is 
based not on any serious study, not on any serious analysis, 
not on sitting down with the opposition to Saddam, who are 
prepared to risk their lives by returning to Iraq and be 
mobilized within Iraq, but on pure assumption, pure 
speculation.
    I keep hearing about Iraqi opposition sitting around hotels 
in Mayfair. Who are we talking about? It is not true. It is 
simply false. I spent the last 15 years getting to know the 
Iraqi opposition, and when people in the comfort of their homes 
and offices in Washington, DC deride the Iraqi opposition for 
sitting around hotels in Mayfair, when they have been in Iraq, 
when they are eager to return to Iraq, when they have seen 
their closest friends and associates and family murdered in 
Iraq, seems to me unfair to them and an unreasonable conjecture 
about their motives.
    So the question remains of their abilities. What can they 
do? You know, I suspect if the sort of derision that is heaped 
on the opposition today had been around in the early days of 
our history, we would still be a British colony. I am sure 
there were people who said, those Americans are never going to 
get organized. They are divided. The people in Virginia cannot 
agree with the people in Massachusetts.
    I do not mean to oversimplify this, but the fact is that 
when you spend the time to understand the opposition, and when 
you look at plausible opposition strategies, the picture that 
emerges is very different from the dismissive view that we have 
heard out of the Clinton administration for the last 8 years.
    It is an opposition that has pulled itself together, that 
has a structure within which it meets and takes decisions. It 
is an opposition that has made clear its intention to abandon 
weapons of mass destruction and embrace democratic principles. 
It is an opposition that is eager to return to Iraq and, most 
of all, it is an opposition that in the past was able to 
organize itself in a major part of the country that was beyond 
the control of Saddam Hussein. Over a third of the country was, 
until 1996, outside Saddam Hussein's control.
    Now, Mort Halperin has repeated the specter that if we want 
to do anything at all for the opposition we have to be prepared 
to mount a military operation. I think he said it might be less 
than Desert Storm, 1/2 million men, and I do not know what 
strategy he is looking at, but I can tell you what strategy I 
think it makes sense at least to consider, and that is this:
    That is, to support the Iraqi opposition, to support the 
Iraqi National Congress in reestablishing its presence in parts 
of Iraq that are not under Saddam's control. That can be done, 
and it can be done quickly. It requires some agreements with 
the two Kurdish groups in the north, and it requires some work 
in the south, but it can be done quickly. It can be done before 
the next hearing of this subcommittee on this subject, of that 
I am absolutely certain, and if they cannot do it, then we will 
know very quickly that they cannot do it, but I believe they 
can.
    That political presence is a direct challenge to the 
legitimacy of Saddam's rule, and every change in situations 
like this begins with that. It happened to Ceaucescu, it 
happened to Milosevic, and it will happen here, too. The moment 
people see there is an alternative, the moment that that veil 
of invincibility is pierced, there is a political dynamic that 
takes place, and anyone who has ever run for office knows how 
quickly things change, the moment it looks as though you can 
stand up and oppose the power that dominates.
    So the establishment of a political presence, coupled with 
broadcasting and publishing so that Saddam would lose his 
monopoly over the flow of information could lead again, as it 
did in 1995, in 1996, to a situation in which Saddam would be 
politically challenged very fundamentally and, at that point, 
if he wished to take military action, he would have to move his 
forces in a way that would present us with very attractive 
targets.
    I have heard it said today that we ought to go after 
serious targets. Mort Halperin said we should go after serious 
targets. I cannot imagine a more serious target than a column 
of tanks attempting to root out dissidents in the south who are 
clamoring for a change of regime.
    Do we always have to abandon our friends? Of course we do 
not. They were abandoned in his administration. He did not have 
anything to do with it, I understand that, but there is nothing 
inevitable about abandoning your friends and allies, and to say 
we will not even try because the last lot did not have the guts 
to stick with it seems to me a recipe for defeatism. It is 
defeatism.
    So I think there is a great deal that can be done with the 
opposition. I think those of us who have been privileged to 
know the opposition have come to appreciate and understand that 
potential.
    The Congress clearly has recognized it in the action it has 
taken before, and I hope that you will encourage the new 
administration to take a new look, to sit down with the 
opposition and talk about the ways in which, beginning with the 
establishment of a political presence and leading ultimately to 
a political challenge to Saddam Hussein, to which, if he makes 
a military response, we have available assets in the air to 
protect that opposition, I hope you will urge the 
administration to consider that course, because none of the 
other things that are under consideration, no matter how hard 
we try to persuade ourselves about improved sanctions or 
smarter sanctions, none of them are going to end the threat 
from Saddam Hussein.
    [The prepared statement of Mr. Perle follows:]

              Prepared Statement of Hon. Richard N. Perle

    Mr. Chairman: Thank you for the opportunity to appear before you 
today. I do not have a prepared statement. For the convenience of the 
subcommittee I have listed on this page the key issues which, in my 
view, must shape any American policy toward Iraq. I will try to cover 
each of them in a short opening statement.

          1. Does the regime of Saddam Hussein pose a threat to the 
        interests of the United States and its allies? How does the 
        magnitude of that threat today compare with what it was a 
        decade ago at the end of Desert Storm? What about this time two 
        years ago? How about last year?

          2. Does Saddam Hussein now possess weapons of mass 
        destruction? How much do we know about his programs with 
        respect to chemical, biological and nuclear weapons? Are any 
        such programs proceeding?

          3. How can we end Saddam's programs to obtain weapons of mass 
        destruction and the means to deliver them?

          4. In the absence of U.N. inspectors, how much can we expect 
        to learn about these programs?

          5. Would a return of U.N. inspectors give us confidence that 
        Saddam's programs would be terminated and that any weapons of 
        mass destruction he may now have would be surrendered?

          6. Would a return of inspectors justify the normalization of 
        relations with Saddam?

          7. Beyond weapons of mass destruction, what should we think 
        of the claim that Saddam is ``contained?''

          8. Are the present sanctions working? Can they be made more 
        effective?

          9. Can we--should we--rebuild the coalition that opposed 
        Saddam following the invasion of Kuwait?

          10. Can we have confidence in the U.N. administration of 
        programs affecting Iraq?

          11. Can we secure ourselves, our forces in the field and our 
        friends and allies in the region as long as Saddam is in power?

          12. What are the prospects for removing Saddam's regime from 
        power?

          13. How can we work with the INC to bring about a change in 
        the Iraqi regime?

    Senator Brownback. This is an excellent discussion, and a 
good starting point. Let us run the clock here 10 minutes, and 
then we can bounce back and forth in a couple of rounds.
    One of my frustrations with what it seems like has taken 
place at least the last 5 years in U.S. policy toward Iraq has 
been this lack of resolve, this kind of drift, just, well, we 
would like to have him out of there, but we are not really sure 
how we would do that, nor are we willing to really take the 
steps to get Saddam Hussein out of office.
    You each are talking about some different steps, and I 
think all of you expressed frustration with where we are today 
in our policy toward Saddam Hussein, and I want to use this 
policy toward Saddam Hussein rather than Iraq. I think that is 
a different issue.
    All of you appear to support changing somewhat the rules of 
engagement on our air targets, if I am hearing you each 
correctly. You are being critical of, or several of you are 
being critical of the targeting we have done to date, and all 
of you would support a more robust rules of engagement on air, 
on our targets for our air, our airplanes and the British 
airplanes. Is that a correct reading of each of your positions? 
Mr. Cordesman.
    Mr. Cordesman. Senator, I think it would not be mine. I 
think you have to be very careful about saying rules of 
engagement for aircraft. What you would then mean is the daily 
aircraft we fly would presumably do even more, every time they 
were illuminated, or they saw a movement in ground-based 
radars, to engage individual systems or find some daily proxy 
to attack. We backed away from that last summer. Let me note 
that the rules of engagement have already changed.
    But the problem is, these changes do not really do 
anything. At the end, virtually the entire Iraq air defense 
system remains. Saddam can provoke an attack at the time and 
place of his choosing. He can often do it in an area which 
produces collateral damage, or serves his own political 
purposes.
    I think the real issue has to be that if you are going to 
attack at all, you must attack with sufficient force so you do 
him real damage. That does not mean daily, or new rules of 
engagement. It means that you allow a cumulative process of 
Iraqi action to buildup. You use this as a reason, and then you 
strike to the point where you take out a significant percentage 
of his air defense assets, or you strike at your targets like 
Republican Guards headquarters. I do not think you can fix any 
aspect of the no-fly zone patrols by simply saying, this is 
strengthening day-by-day rules of engagement.
    Senator Brownback. I do not think I am quarreling with you 
on this point. You are saying, though, that we should, when we 
respond, respond much stronger and on much clearer, bigger 
targets, is that correct?
    Mr. Cordesman. Much more selectively and much more rarely. 
Go in hard, take the political cost, which is roughly the same 
as if you conducted a minor strike, wait, and then hit him 
again if he reconstitutes. But, do not do this in some sort of 
rigid game where he can pick the way in which we respond and 
when we do it.
    Senator Kerrey. Mr. Chairman, I think it is extremely 
important--and it may be some modification of the no-fly 
protocols can be changed, but I think it is extremely important 
that we not enter into a process where it basically is the 
equivalent of a mission creep.
    I think what is needed is not only a fundamental 
reassessment, but hopefully a bipartisan declaration from 
Congress, and that is why I very much appreciate, Mr. Chairman, 
both you and Senator Wellstone have stayed and listened to us 
yak on as we have done, because what is needed is a bipartisan 
force that says, we want to have the same experience we had 
when Kim Dae Jung, Nelson Mandela, Vaclev Havel, and Lech 
Walesa came to a joint session of Congress and said, ``thank 
you for liberating us.''
    All four of them came to the American people and said--and 
I agree with what Mort is saying, and I also agree with what 
Tony is saying, you cannot do this on the cheap, and if you 
just let this creep along because we think, well, we want to 
use more force with our pilots, we may lose a few pilots, and 
then the American people will say, what is this all about, I 
did not realize the mission had changed.
    I think it is very important for us to say, we believe in 
the liberation of Iraq, and if we believe in the liberation of 
Iraq, in my view, our will equals feasibility. I completely 
agree with Morton. By the way, it was not just in the Clinton 
administration. The first time we called them up to arms was 
during the Bush administration, and we did not provide them 
with cover, and they died as a consequence.
    We call on them to be courageous, and then we do not back 
them up, and it happened in two administrations. That cannot be 
allowed to happen this time, and I hope that you can get to a 
point--I believe that if we recognize the provisional 
government and protect that provisional government in the 
north, and we lift the sanctions in the area we are protecting, 
I have absolutely no doubt that the various factions are going 
to be able to work together, that if they will see that the 
United States of America is open, sincere, and is going to stay 
the course, I have no doubt that our will will equal 
feasibility and will produce a liberation, and will produce a 
celebration in Baghdad that is comparable to others that we 
have celebrated in the latter part of the 20th century.
    Dr. Halperin. Let me make two comments. First, I think when 
we look at these comparisons we need to understand that this is 
a regime that is much more ruthless than the ones that 
ultimately we helped to liberate. This is a regime that still 
lives on absolute terror, in which there is no space at all for 
any kind of not only opposition, but civil society of any kind, 
in the areas that Saddam Hussein controls, so I think the 
process of getting rid of this kind of regime is very different 
than the South African Government that ultimately was displaced 
and the Central European Government.
    Senator Brownback. What about Milosevic?
    Dr. Halperin. Milosevic I think was as dangerous to our 
interest, but life in Belgrade under Milosevic was nothing like 
life--I mean, there were independent radio stations. They tried 
to close them down and they went on the Internet.
    Senator Kerrey. That does not tell us anything.
    Dr. Halperin. It tells us it is going to be much harder.
    Senator Kerrey. But it does not tell us it is not feasible. 
The question is, do we want to get the job done, and if we want 
to get the job done, it becomes feasible.
    Dr. Halperin. I agree.
    Senator Brownback. Actually, my point here, and if I could 
ask you----
    Senator Wellstone. Would you tell this witness here to 
please behave himself?
    Senator Brownback. It seemed like toward Milosevic we 
decided we do not want this guy in power, and that was 
projected, and that was projected around the world. It seems 
like, toward Saddam Hussein we are kind of going, we do not 
like this man in power, but we are not willing to then go ahead 
and, OK, here is the steps, then, you take to show the will 
that the United States needs to.
    Dr. Halperin. I think the rhetoric has been the same about 
both of them. I think the difference was, it was a lot easier 
to get rid of Milosevic than it is Saddam Hussein, and I think 
it comes to the question of military force.
    Now, Richard says that if we encourage these areas and the 
tanks start moving, that is a very tempting military target, 
and one that we can attack. That is true, but I think the 
history of air power is that you do not completely stop tank 
operations, or other ground operations, with military power.
    We saw that with Milosevic. The destruction in Kosovo 
continued and was brought to an end only because Milosevic 
finally was forced to give up, not because our bombing raids 
stopped him from killing people, and I simply do not think we 
can count on either the threat of air power or the actual 
implementation of air power.
    I am not suggesting we not do it. I think we ought to have 
that debate, but the debate I think has to accept that if he 
moves, we bomb, and if the bombing does not work, we intervene 
with ground forces, and that means having the ground forces 
there before he moves, because if we wait to start sending in 
the ground forces after we discover again that bombing does not 
stop tanks, you destroy a lot of tanks but you do not stop them 
from killing people, it is going to be too late for the people 
who are being killed.
    Senator Brownback. I understand, and we have been down that 
road before.
    Richard.
    Mr. Perle. Mort wants smart sanctions, I want smart 
weapons. We have both been in the Pentagon, but he was there 
before me.
    With the really smart weapons we now have the capability, 
in situations like the military situation that would exist in 
Iraq, to do really quite extraordinary things with air power, 
to hit the targets at which we aim almost all the time, and to 
do so without significant risk to our own pilots, particularly 
in a situation where we control the air, and so there is no 
comparison between the air operation that we faced in Kosovo, 
in my view, and the kinds of air operations that would be 
required in the Iraqi desert, dealing with columns of armor 
moving over a very thin road network and through narrow defiles 
and passes in the north.
    This is ideal territory for air warfare, as we saw during 
Desert Storm. You saw the roads and the highways, so the 
potential for air power is vastly greater. I am not saying you 
will never need any ground force, but we are not talking about 
a Desert Storm scale of activity.
    Senator Brownback. Senator Wellstone.
    Senator Wellstone. Let us continue with this discussion. I 
want to get back maybe at the end of my time to sanctions. 
Mort, I just want to quote from part of your testimony, then 
bounce this off of everyone, starting with you. You say, 
``anyone advocating a serious''--and this is the issue we are 
focused on--``a serious and determined effort to change this 
regime in the short run by a covert force bears a very heavy 
burden of demonstrating that such an effort has a real chance 
of success without massive American military action.''
    Now, for each of you, starting with you, Mort, do you think 
that the Iraqi opposition can undertake a major successful 
operation without the United States being a part of this, or 
being dragged in, or however you want to put it, and do you 
think the American people would support such an effort? That 
is, I guess, my question initially for each of you.
    Dr. Halperin. I do not believe that they could sustain the 
safe havens without substantial American military force, and I 
guess I am less optimistic than Richard is, that if they were 
left in these safe havens, which they occupied, as I said, a 
substantial portion of the country earlier on, I do not believe 
it has the same kind of impact as we see in political 
elections, or even as we saw in politics in Eastern Europe 
because of the nature of this regime.
    I believe it is a pure totalitarian regime that remains in 
power based on the worst kinds of terrorism, and therefore I 
think, while a miracle can always happen, that if we go into 
this, we have to go into it with the notion that there is going 
to have to be a substantial American military involvement, and 
that air power alone is not likely to be enough, and whether it 
is a smaller land force, as Richard suggests, or a bigger one 
that I suggest, at least some of the people in this 
administration would want to be sure that it succeeded. I think 
we have to assume that.
    I would also have to say that while I think one should 
never rely entirely on experts, it is not true that this 
administration--I mean, the past administration and, I assume, 
the one before that, did not look at the hard question of 
whether you get rid of Saddam Hussein by supporting the 
opposition, and the people who get paid to do that in various 
agencies of the government reached the conclusion that you 
could not. Now, they may be wrong, but it is not the case that 
people just dismissed it without taking a look at it.
    Senator Wellstone. The other part of my question for you, 
and each of you, is, I asked you whether or not you thought 
this could be done without major American involvement, both air 
and ground, and you said you would need that. Would you 
advocate such a policy?
    Dr. Halperin. I do not advocate it, because I think the 
cost to the United States and the cost to our relationships 
with other countries, and the cost to our ability to use the 
Security Council for other purposes, would outweigh the value. 
I would like to get rid of this man, but I think that cost is 
not worth it.
    Senator Wellstone. Senator Kerrey.
    Senator Kerrey. I would answer unequivocally yes, it is 
worth it. It is worth the price, and by the way, the opposition 
forces are not asking for the kind of American intervention 
that Mort is advocating. I do think he is quite right that we 
have to make certain that we are not going to start and then 
stop again. We have to understand, we have got to go the 
distance.
    Senator Wellstone. But my question was whether or not you 
think this opposition can undertake this effort without, in 
fact, major involvement by us.
    Senator Kerrey. We have a major involvement. Nineteen 
Americans were killed at Khobar Towers in June 1996. Why? They 
were killed because we are in Saudi Arabia. Why are we in Saudi 
Arabia? To contain Iraq.
    In 1998, 11 more Americans were killed in West African 
Embassies. Why? Because Osama bin Laden wants us out of Saudi 
Arabia. And 17 more were killed--what I am saying, Senator, is, 
we have a significant military operation in place right now, 
and we are taking casualties.
    The question is not, are we going to have a military 
operation. The question is, what is the mission, what is the 
objective, and I am saying with great respect that I believe 
the mission should change from containment to replacement to 
liberate the people of Iraq, and I believe it is entirely 
feasible for us to do it, and I think the payoff is enormous, 
20 million people of Iraq liberated.
    Senator Wellstone. So your position is, you go from 
containment to replacement, and it would be Iraqi opposition 
forces, but it would also necessitate major involvement by us 
militarily, and we should do that? I am just trying to be 
clear.
    Senator Kerrey. I think it would take a continuation of 
military involvement. It is not new military involvement. The 
point I am making is, we are taking casualties today, Senator. 
We have at least--we have several hundred million dollars of 
expenditures right now on the line to try to contain, so I am 
saying it is a false choice to say that what I am talking about 
to liberate Iraq would require new military operation. It would 
require a different kind of planning and a different military 
operation than the one we have right now, but it is not a 
military operation versus none today.
    Senator Wellstone. You know how you can do this--the last 
word I get and that is not fair to you, and then move on to 
others, but just so you respond to this, and then I promise to 
move on, but really, it certainly--I mean, if we are talking 
about air strikes and ground troops, that seems to me to be 
rather different. Yes, we have a military presence. This seems 
to be a rather different order from where we are right now, 
yes?
    Senator Kerrey. It certainly--if you say that my current 
mission is to contain, we have taken 47 casualties and we have 
spent several billion dollars in order to contain over the last 
10 years and, as Tony says, we have gotten benefit out of it, 
and if you want to liberate, it is going to take a different 
military operation than the one we have in place right now.
    But Senator, if we end up with a bipartisan effort coming 
out of Congress, go to the opposition and ask them, what is the 
definition of will? What is the definition of what they want 
out of the American people?
    They will not say that they need a massive military 
intervention in order to be able to carry this off. They are 
asking for much different. They are asking for recognition of a 
provisional government. They are asking that we protect that 
provisional government in the north. They are asking we lift 
the sanctions in those liberated areas, and they believe, and 
in fact they came relatively close in the past once before 
during the Clinton administration, when we pulled back. We did 
not provide the follow-on support because of the very reason 
you are saying.
    Mr. Perle. Senator, I do not want to propel us into an 
argument about the advice that led to the policies of the past, 
but let me just say that one of the documents that purports to 
be definitive with respect to the quality of the opposition, 
prepared by an organization I will not identify, is short on 
facts, but one of the facts it purports to relate to the reader 
is that the head of the Iraqi National Congress travels with 26 
bodyguards.
    Now, he happens to be in the room, and he is surrounded by 
no bodyguards at all. That is the quality of the expert advice 
that we have been given for years, and if this committee wants 
a really interesting and challenging assignment, it would be to 
review the last 30 years of expert advice on the gulf from the 
institutions on which we have come to rely.
    There is some history here, and the history important. In 
1995, the Iraqi opposition in the north of Iraq planned a 
military operation from which United States support was 
withdrawn at the last minute. They thought it was too late to 
terminate the operation altogether, and it was initiated. It 
resulted very quickly in the destruction of two Iraqi 
divisions. This was with very little support from the United 
States, and none at all at the crucial moment.
    In 1996, when Saddam Hussein moved into the north, only 
after securing the agreement of one of the Kurdish factions, 
and without that agreement they could not have moved unopposed 
into the north, when Saddam Hussein did that, he did it because 
the defections from his own military forces were mounting in 
such numbers that he understood he had to act.
    Now, unhappily, at that moment we did not have the will, we 
did not have the resolve, we did not have the determination to 
exercise the air power we had which in modest application would 
have, I believe would have ended Saddam's regime then and 
there.
    This is not as daunting a prospect as people say it is, and 
it is true Saddam is brutal beyond imagination. It is also true 
that men who rule like that earn enemies in the millions, and 
when things begin to turn, they can and do turn very fast.
    This war, if it happens, this liberation of Iraq, if it 
happens, will be conducted principally by Iraqis both from the 
armed forces joining the political opposition in the north and 
south, with a little bit of help from American air power.
    Senator Wellstone. Thank you very much.
    Mr. Cordesman.
    Mr. Cordesman. The problem is that we often end up 
attacking the opposition when we should be noting that Saddam 
is a strong and competent tyranny with a core of very effective 
military forces which are heavy, well-armored, which have 
fought well against much better organized opponents at the 
regional level.
    I think we sometimes forget how different the gulf war was 
relative to what happened in the Iran-Iraq war. Because of 
that, I do not believe that you can create an effective 
military opposition without massive American participation. I 
think you would have to have forces based in Turkey and 
defensive forces in terms of their ability to operate really 
out of Saudi Arabia. Kuwait does not have the basing capability 
that would approach several wings.
    You would need a massive battle management support. It 
would not be an extension of what exists today in the no-fly 
zones. You would have to be prepared, frankly, to deal with the 
consequences of what happens if the opposition should lose, and 
I strongly suspect they would lose. I have heard many reports 
of defections and weaknesses and assassination attempts and 
coup d'etat attempts, and I have listed quite a number of them 
in my books, but the fact is, he is still there, and at least 
some of those coup d'etat attempts never happened.
    The other thing that we have not talked about and has to be 
borne in mind is, are we really talking about unilateral war? 
Are we going to bring Turkey along into this equation? Is Saudi 
Arabia going to play, in spite of its stated fear of division? 
What is Kuwait really going to do?
    The last time I was in Kuwait talking to the opposition--
and I am afraid the history of that conference was not a happy 
one--I was talking to someone who claimed to be a commander in 
the Supreme Council for the Islamic Revolution in Iraq. In 
listening to his call for American air support--and coming from 
an Iranian-backed opposition this was interesting--it was quite 
clear he may have been well able to launch small attacks inside 
southern Iraq, and carry out pinprick attacks on the regime. 
But, he had absolutely no idea whatsoever about what it meant 
to actually confront a modern force and to deal with air power.
    And let me note, there has to be an aftermath to military 
action. We have found out the hard way that unless you have an 
almost unified opposition arise, you have a massive exercise in 
nation-building, so when you begin with the military dimension 
you had better be prepared to go on with all of the economic 
and other aid required, something we have not done in Bosnia, 
and something we certainly have not done in Kosovo, and if we 
are going to set a precedent, so be it, but it will be the 
first one.
    Senator Brownback. It is troubling to me that we are 
sitting here saying, I wish we could do this, I wish we had 
done that, but if we continue on the current course we are on 
right now, if we go into smart sanctions, which a couple of you 
have noted you deem as a start toward no sanctions, toward just 
loosening up what is taking place, we are further eroding the 
sort of resolve, and we are probably just a few more years down 
the road from just saying, oh, what the heck, let us just kind 
of dribble out of the region and Saddam stays, which is what I 
think most of our Arab allies in the region have concluded is 
actually what is going to take place anyway.
    U.S. resolve loosens, weakens over time, we are here in the 
neighborhood, we have to take the brunt of any fight, and if 
you guys are not going to show resolve with this, then we are 
certainly not going to poke a stick into Saddam Hussein's eye.
    That is why I think right now is really such a key time for 
us. We have got a new administration, and one that has to make 
this choice, and I think the choice they make now determines 
where things end up within a couple of years, and we could make 
choices now on policy toward Iraq, U.S. policy toward Iraq that 
may take a couple of years in their implementation to be 
successful, but they could ultimately, I believe, put us in a 
position where Saddam is out of there.
    It is not a 6-month strategy. I think it is a multiple-year 
strategy, but it is one of those forks in the road where, OK, 
we are going to take a much more aggressive, robust position 
now, knowing that it is not going to produce the solution we 
want in 6 months, but it will, we hope, in 3 years, or we could 
stay on this one we are on right now which just kind of 
dribbles down until we get occupied with something else, and 
eventually we start pulling people, aircraft out of Saudi 
Arabia and we start focusing in different areas, and we just do 
not go anywhere further forward.
    I would hope all of you would actually work with us at this 
point that we take the more robust approach now, where we have 
a new administration in, and that we would all conclude 
together, as we, I believe, have at the panel, that Saddam 
Hussein is the problem, the regime that is currently in control 
is the problem, and now is the time for us to take a different 
approach.
    I would welcome your input at our offices, I am certain 
that Paul would as well, of what that different approach would 
be, but more importantly input toward the administration of 
saying, we will need to come together on this as a country if 
we are going to implement this policy.
    And I think, Dr. Halperin, what you note is correct, there 
are costs associated with this, or difficulties associated with 
this. I think long term there are far more difficulties 
associated with the route we are currently on than picking a 
new one, that we can fill a cavity now or we can pull a tooth 
later, that this is the time to act and it will be much less 
costly on that.
    That will be my final comment. I do not know, Paul, if you 
had anything further you wanted to add, or the witnesses would 
care to state.
    Dr. Halperin. Senator, I agree with you that we cannot 
afford to continue to drift. I think there are two disastrous 
policies. One is to continue to drift, and the other is to 
start support for the opposition that we are not prepared to 
carry forward, but I think there are two real policies, one is 
the one of deciding we are going to get rid of him and support 
the opposition to the degree that that is necessary. I do not 
see how you do that over 3 years, because I do not think this 
can be a slow process.
    Richard is right, you have got to do something decisive and 
be prepared to back it up. I do not see a sort of gradualism 
here that does any good, but I do think there is an 
alternative.
    I do not believe that moving to a different set of 
sanctions of the kind that I have outlined inevitably means we 
are getting out. What I think it means is that we establish 
something that is permanent and something that will have the 
necessary support both in the region and with the U.N. Security 
Council, not to stop everything, but to put Saddam Hussein in a 
position where he cannot engage in conventional military 
operations either in his country or beyond it, and where his 
ability to expand his weapons of mass destruction program is 
not eliminated, but contained, and that we then confront them 
with a classic containment situation, which I think we could 
sustain as long as we have to.
    I think, in other words, we can go to a new form of 
containment which is sustainable.
    Senator Wellstone. Mort, I gather that--and I do not want 
to take time away from Secretary Perle or Mr. Cordesman, but I 
gather in some ways what you just said goes back to the 
distinction that Senator Kerrey was trying to draw between 
containment--you are talking about a different policy of 
containment. You do not want to go with drift versus what he 
called replacement, am I correct?
    You are saying, as unhappy a prospect as it is, the 
containment, a different kind of containment is a policy that 
you think is workable and sustainable, and I think Secretary 
Perle has a different--I mean, let me try and just take 5 more 
minutes and draw out your perspective. I do not want to 
preclude you.
    Mr. Perle. I think the distinctions will be lost on most 
observers between containment and containment mark 2. It is 
bound to be viewed----
    Senator Wellstone. I knew he would say something like that, 
Mort.
    Mr. Perle. We may not be as far apart as Mort thinks. I 
think Mort has not looked at--and correct me if I am wrong--at 
ways in which a policy of support to the opposition could 
entail containment of risk, so that one would begin--I mean, 
Mort referred to arming the opposition. He did not hear 
anything about arming the opposition from me, that the usual 
perception is we are going to start issuing weapons to the 
opposition and invite them to march toward Baghdad. That 
certainly is not my concept. It is not General Downing's 
concept. It is not the concept of the opposition figures that I 
have consulted with.
    Our views differ, but my own view is that you start with a 
return of the opposition to the north, to the north and parts 
of the south that are not under Saddam's control. I do not 
think there is a lot he can do about that in the near term, and 
he might not even be motivated to do a lot about it in the near 
term.
    As they begin to gather political strength, eventually they 
become a political challenge of some importance. We could talk 
then about what you would need in terms of military resources 
from outside and from inside, and what you could expect to get 
from defections from the Iraqi forces, what might even be 
there, latent now, underground because there is no external 
support of any kind, not even financial external support, but I 
think you could contain the risk in the sense that if the 
political operation did not appear to be succeeding, then you 
would not necessarily take the next step.
    One of the things that I think has discouraged people from 
looking at options in this area is the sense that a decision to 
support an opposition strategy is the decision to launch an 
attack against Baghdad, and that looks pretty daunting under 
current circumstances. I certainly would not recommend that.
    But the opposition themselves are prepared to risk their 
lives. They make judgments, have to make judgments every day 
about how much protection they require and how much risk they 
are prepared to take, and they believe there are feasible 
options in which they can engage, and I think we do not have to 
accept a 2 or 3-year scenario to take those first steps.
    Senator Wellstone. You know, Mr. Chairman, I want to hear 
from Mr. Cordesman before we finish, but I was thinking about 
this testimony, which I think has been very important, but it 
is not as important as it should be if it is just a hearing and 
that is it.
    One of the things we might do, because we have been apart 
on this, is we might--the staffs get together and see exactly 
what area of common ground we have. We should go through the 
same exercise as this discussion, and I will tell you, this 
committee, I think we should.
    The other thing is, I really believe we should, this 
committee, we should put together a whole set of hearings on 
this issue, the whole question.
    Mr. Cordesman started out earlier saying ``I do not think 
you can decontextualize this from what is happening with Israel 
and in the Middle East, and what was once the peace process, 
and where are we heading.'' I think we ought to do a whole set 
of hearings and just stay with it, and I am committed to doing 
that, and we could work together on it. I think it is really 
important to do.
    By the way, I would like to thank all of you in advance. 
Thank you.
    Mr. Cordesman. Senator, a very few quick points. One thing 
I think we all agree on is that people really need to 
understand that smart sanctions will at best only work if you 
have strong and decisive military containment. Strong and 
decisive military containment means military action, and the 
willingness and demonstrated ability to protect Kuwait, the 
Kurds, and halt any major deployment of weapons of mass 
destruction.
    If we do not have that commitment, smart sanctions are, 
indeed, a road to no sanctions. I do not believe the Bush 
administration would make that choice, but it is a point to 
remember.
    I do not believe the opposition today can be made strong or 
popular enough to overthrow Saddam. I do not necessarily 
disagree with what Richard has said, but any effort to support 
the opposition has to be very well contained, without military 
adventures, without creating the equivalent of a Bay of Pigs. I 
do not believe you can create a Contra movement, which was not 
universally popular, as I remember it, in Congress on a 
bipartisan basis.
    But more than that, we have forgotten the fact we cannot 
act in a vacuum. This is not some game board. What about 
Turkey? What about Saudi Arabia? What about Jordan? What about 
Syria? What kind of structure of alliances does it take to 
really make this work, as distinguished from having Saddam use 
it to discredit the opposition as tools of America, and use it 
to gain popularity in the Arab world, and you had better answer 
all of those questions before you start anything that you may 
not be able to finish.
    Senator Brownback. Thank you. That is all well-put. We will 
work together, and let us see if there are things we cannot 
come up with together. I do not detect the disagreements that I 
guess I thought I would coming in here. Maybe there is on 
tactics or thoughtfulness, maybe, of when you go in you cannot 
move one piece of this chessboard without impacting four or 
five other chess games you have got going on at the same time, 
and those have to all be considered.
    It has been an excellent discussion, particularly at an 
important time for the country, and in looking at a new policy 
position here. We appreciate very much your attendance.
    The record will remain open for the requisite number of 
days to make changes, if you desire, in your testimony. Thank 
you very much. The hearing is adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee adjourned.]

                                   - 
</pre></body></html>
